<html>
<title> - ASSISTANCE FOR ELDERLY AND DISABLED REFUGEES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                       ASSISTANCE FOR ELDERLY AND
                           DISABLED REFUGEES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   INCOME SECURITY AND FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2007

                               __________

                           Serial No. 110-29

                               __________

         Printed for the use of the Committee on Ways and Means


                   U.S. GOVERNMENT PRINTING OFFICE
43-762                      WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY C. HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL JR., New Jersey        JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

                                 ______

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JERRY WELLER, Illinois
ARTUR DAVIS, Alabama                 WALLY HERGER, California
JOHN LEWIS, Georgia                  DAVE CAMP, Michigan
MICHAEL R. MCNULTY, New York         JON PORTER, Nevada
SHELLEY BERKLEY, Nevada              PHIL ENGLISH, Pennsylvania
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





                            C O N T E N T S

                               __________

                                                                   Page

Advisory of March 15, 2007, announcing the hearing...............     2

                               WITNESSES

K ' Keng, Montagnard Refugee from North Carolina.................     6
Doua Thor, Executive Director, Southeast Asia Resource Action 
  Center.........................................................    15
Candy Hill, J.D., Senior Vice President for Social Policy, 
  Catholic Charities, U.S.A......................................     8
Mark Krikorian, Executive Director, Center for Immigration 
  Studies........................................................    19

                       SUBMISSIONS FOR THE RECORD

Hebrew Immigrant Aid Society, statement..........................    37
Alliance for Retired Americans, statement........................    41

 
                       ASSISTANCE FOR ELDERLY AND
                           DISABLED REFUGEES

                              ----------                              


                        THURSDAY, MARCH 22, 2007

             U.S. House of Representatives,
                       Committee on Ways and Means,
        Subcommittee on Income Security and Family Support,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 12:30 p.m., in 
room B-318, Rayburn House Office Building, Hon. Jim McDermott 
(Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                            SUBCOMMITTEE ON

                   INCOME SECURITY AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
March 15, 2007
ISFS-4

                     McDermott Announces Hearing on

              Assistance for Elderly and Disabled Refugees

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security and Family Support of the Committee on Ways and Means, 
today announced that the Subcommittee will hold a hearing on assistance 
for elderly and disabled refugees. The hearing will take place on 
Thursday, March 22, 2007, at 12:30 p.m. in room B-318 Rayburn House 
Office Building.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include affected individuals and those assisting them. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Supplemental Security Income (SSI) program provides cash 
benefits to elderly and disabled individuals who have very low incomes 
and limited resources. Maximum monthly benefits equal $623 per 
individual and $934 per couple. Prior to 1996, legal immigrants, 
including refugees and other humanitarian immigrants, were eligible for 
SSI on the same basis as U.S. citizens. As part of the 1996 welfare 
reform law, nearly all legal immigrants were made ineligible for SSI, 
except for refugees and other humanitarian immigrants who were allowed 
to receive SSI during their first five years in the United States 
(which was later extended to seven years).
      
    According to Social Security Administration (SSA), over 40,000 
refugees and other ``humanitarian'' immigrants in the United States 
could reach the seven-year cut-off for SSI over the next ten years. 
Some also may lose Medicaid coverage upon the termination of their SSI 
benefit. These elderly and disabled refugees have generally fled 
political and/or religious persecution in their home countries and have 
arrived in the U.S. with little, if any, income or assets.
      
    Obtaining U.S. citizenship would prevent the termination of SSI 
benefits, but a variety of issues make that difficult. One important 
barrier to citizenship within the seven-year period is lengthy delays 
in processing of citizenship and adjustment applications by the U.S. 
Citizenship and Immigration Services or USCIS. (Refugees and other 
humanitarian immigrants must first live in the United States for five 
years as a legal permanent resident before they are even eligible to 
apply for citizenship.) Processing backlogs have been caused by 
increases in the number of applications, computer problems, 
insufficient staffing levels in some areas, and lengthy background 
checks put in place after the September 11, 2001 terrorist attacks. 
Additionally, the application process involves multiple steps including 
a lengthy application, an in-person interview, a test of English 
proficiency and civic knowledge, and an application fee--all of which 
might present barriers for elderly or disabled refugees.
      
    In announcing the hearing, Chairman McDermott declared, ``Having 
fled persecution, many refugees come to this country with little more 
than the clothes on their backs. We need to live up to our Nation's 
tradition of providing a helping hand to those most in need by 
extending assistance to refugees who are too elderly or too disabled to 
work.''

FOCUS OF THE HEARING:

      
    The hearing will focus on the current limitation on providing SSI 
benefits to refugees and other humanitarian immigrants.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=18). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business April 5, 
2007. Finally, please note that due to the change in House mail policy, 
the U.S. Capitol Police will refuse sealed-package deliveries to all 
House Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCDERMOTT. The meeting will come to order. Today, 
we are going to talk about Social Security benefits for 
refugees. Refugees come to American fleeing injustice or 
persecution or torture and/or the threat of death. So, these 
are folks who have arrived here under a variety of 
circumstances. As the beacon of freedom around the world, we 
have become a safe haven for many humanitarian immigrants who 
usually leave their homelands in haste, sometimes with a little 
more than the clothes on their back, and some of the refugees 
are elderly, disabled or both. Now we try to help them with the 
bare essentials. We supply Supplemental Security Income (SSI) 
benefits that equals about $623 a month for an individual, 
which does not even reach 75 percent of the poverty level. So, 
we are not bringing them into a lavish lifestyle here. Over the 
last few years, this modest safety net has gradually been 
ripped away from an increasing number of disabled and elderly 
refugees, roughly 12,000 refugees and other humanitarian 
immigrants have had their SSI terminated over the last few 
years. The Social Security Administration projects that another 
40,000 will lose their benefits over the next 10 years. These 
cut-offs are the result of a provision in the law that denies 
refugees SSI once they have been in the United States for 7 
years. If a refugee becomes a citizen, he or she may continue 
to receive SSI but a series of obstacles make their transition 
to citizenship difficult within the 7 year time limit on SSI. A 
refugee must first live in the United States for 6 years before 
they are even eligible to submit an application for 
citizenship. After 6 years, the refugee must confront a lengthy 
application which may take several more years. There are other 
barriers to citizenship beyond long processing times for 
naturalization applications. For example, a recent cap on the 
annual number of asylees who may become legal permanent 
residents continues to force many of these people to wait for 
more than 7 years before they can file a citizenship 
application. Additionally, some disabled and elderly refugees 
encounter difficulties navigating the application process, 
which includes both an English language and a U.S. civics test, 
as well as fees reaching as much $400 per application. Now, to 
his credit, President Bush acknowledged the unnecessary 
hardship on refugees caused by the 7 year time limit on SSI and 
his budget calls for an extension on SSI benefits. The 
Administration's proposal is less comprehensive than I think is 
needed but it really is headed in the right direction, and I 
think the President deserves credit for that. Hopefully, 
today's hearing will begin to light a fire under the Congress 
to act on this issue. For my part, I look forward to working 
with Mr. Weller and other members of the Subcommittee toward a 
meaningful and immediate solution. I do not intend to see 
another year go by without the Committee acting on this issue. 
We surely can find a way to provide basic assistance to elderly 
and disabled individuals fleeing persecution. I would add that 
the Iraq war is going to have an impact on this whole issue 
because we are going to get a whole bunch of people from Iraq 
into this process. We might as well fix it now because it is 
going to happen to them. Because if your name is Abdul or 
Ahmad, getting a citizenship in this country is really 
difficult.
    So, I now yield to the Ranking Member of the Subcommittee, 
Mr. Weller. Mr. Weller?
    Mr. WELLER. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate your calling this hearing today. As we have 
discussed in our prior hearings it is important for our 
Subcommittee to review our Nation's social policies, especially 
our social safety net to make sure that it is working as 
intended. Of course today is one of those opportunities, and I 
look forward to the testimony from those on our panel.
    When Congress reformed welfare in the 1990's, it also acted 
to focus means tested benefits of citizens on the United States 
as well as non-citizens who have worked and paid taxes in this 
country for a number of years. Noteworthy exception of this 
general rule involved the treatment of refugees who are 
guaranteed access to means tested benefits like SSI, food 
stamps, and Medicaid during their early years in this country. 
This policy recognizes that refugees flee their home countries 
with few possessions and continued to make available special 
help as they adjust to life in our country. That is consistent 
with your Nation's best traditions as a beacon of hope for 
oppressed people around the world.
    Later legislation expanded the special treatment for 
refugees to guarantee them additional years of benefits for the 
current total of up to 7 years of benefit checks after they 
arrive. The premise of this extension was to provide enough 
time for refugees who wanted to become citizens to do so, 
maintaining their eligibility for benefit checks along the way. 
During these 7 years, taxpayers provide each refugee as much as 
$50,000 in SSI cash benefits, not counting the value of food, 
housing, health care, and other benefits they might receive.
    One of the issues we will discuss today is whether this 
current 7 year period of guaranteed eligibility for SSI benefit 
checks is enough given the reality of the naturalization 
process today. Right now, there is a class action lawsuit in 
Federal court in Philadelphia that argues some refugees seeking 
to become U.S. citizens have lost SSI benefits due to delays in 
the naturalization process. Addressing that problem may be a 
productive area for bipartisan adjustments. Such adjustments 
would ensure people playing by the rules and seeking to become 
citizens do not lose out simply because the naturalization 
process takes too long. That would be fair, targeted, 
consistent with current law, and reasonably affordable in terms 
of cost. Some might propose additional exceptions, perhaps for 
those of advanced age. Others maybe would like to go even 
further and provide for continued SSI eligibility for all 
refugees for an additional year or 2 years or possibly even 
longer. There are arguments for and against each of these 
approaches but two facts are unavoidable. First, the longer and 
broader the extension, the greater cost. Second, offsets for 
additional costs do not exactly grow on trees.
    We welcome our guests and look forward to their testimony 
this morning. Again, thank you, Mr. Chairman, for conducting 
this hearing.
    Chairman MCDERMOTT. Thank you very much. If the witnesses 
will come up and take your place at the table, we would be glad 
to hear your testimony. We have asked all of you to send in 
your testimony, and that will be entered in full in the record 
so you can be assured we will have a chance to read that. But 
if there are other things you want to say, you now have about 5 
minutes to do that. We will begin with K ' Keng, who is a 
Montagnard refugee from North Carolina. I understand Mr. 
K ' Keng you are going to use a translator to do your 
presentation but welcome.

 STATEMENT OF K ' KENG, MONTAGNARD REFUGEE FROM NORTH CAROLINA

    [Mr. K ' Keng testifies through an interpreter.]
    Mr. K ' KENG. Mr. Chairman and Honorable Members of 
Congress, I am too old to be able to follow what is part of my 
statement and what is written because of the time limits so I 
am going to shift it to the gentleman sitting next to me and go 
to the rest of the statements.
    Chairman MCDERMOTT. All right, go ahead.
    Mr. K ' KENG. Mr. Chairman and Honorable Members of 
Congress, today I come before you as a representative of all 
the elderly Montagnard in North Carolina. We have lost or are 
losing SSI benefits. My name is K ' Keng. I am a Montagnard 
refugee from the central highlands of Vietnam. I am 75 years 
old. I lived much of my life as a farmer in my village in the 
central highlands of Vietnam until 1965 when I, along with 
thousands of other Montagnards, were recruited and trained by 
the U.S. Special Forces to fight alongside Americans during the 
Vietnam War. In 1970, while serving in the Province 
Reconnaissance Unit, I was hit by a piece of B40 artillery from 
the North Vietnamese Communists, which entered my right eye and 
broke my left wrist and hand. Even though my right eye was 
completely blind, I still returned to serve as janitor for the 
special military unit until the end of the war in 1975.
    In April 1975, when North Vietnamese Communists took over 
South Vietnam, I was arrested and imprisoned for 6 years as a 
political prisoner because I had fought along with the 
Americans. In 1992, I applied from the refugee resettlement 
program created for political prisoners. My wife, K ' Keo, and 
I were resettled in the United States in 1996 with our young 
son, K'Hung.
    We both found jobs shortly after we arrived in the United 
States working in a bakery. Three months later, I was laid off 
because of my disabilities. I then applied for SSI benefits. My 
wife continued to work until 2001 and also got laid off because 
of her age and then she applied for SSI also. We both had our 
green cards but our SSI benefits were cut off in February 2003 
because of the 7 year time limit. While it has been expected 
that 7 years would be enough time for us to obtain our 
naturalization, it is not. Having a little to no formal 
education in the central highlands of Vietnam and being much 
older when you finally have access to education in the United 
States, learning English in order to take the naturalization 
exam has been very difficult. Currently, I am enrolled in 
English classes in the hopes that I will 1 day be proficient 
enough to take and pass the naturalization exam to become a 
U.S. citizen.
    Since the loss of our SSI benefits, the only source of 
assistance my wife and I receive is food stamps, the amount is 
$280 a month. For this reason, our son, 20 years old, had to 
leave his school and has to work full time to help us 
financially. At the young age of 20, our son has to delay his 
own educational goals to help us provide food, shelter, and 
other necessities for our family because of no longer receive 
SSI.
    Mr. Chairman, the Montagnard community is very thankful 
that a handful of us were able to leave the central highlands 
after the fall of South Vietnam. Today, indigenous Montagnard 
continue to be persecuted in their Christian faith in Vietnam. 
We came with great pain, suffering, and loss but also the 
promise that we would be treated with dignity we deserve as a 
friend and in many ways as veterans of the United States. We 
urge that Congress act to provide immediate relief for those 
who have lost their SSI benefits as well as a long-term 
solution to prevent others from losing their main source of 
support. Again, thank you very much for the privilege to 
testify today. God bless you and bless America.
    [The prepared statement of Mr. K ' Keng follows:]
 Prepared Statement of K ' Keng, Montagnard Refugee from North Carolina
    Mr. Chairman and Honorable Members of Congress,
    Today, I come before you as a representative of all the elderly 
Montagnards in North Carolina who have lost or are losing their Social 
Security Income benefits.
    My name is K ' Keng, I am a Montagnard refugee from the central 
highlands of Vietnam. I am 75 years old. I lived much of my life as a 
farmer in my village in the central highlands of Vietnam until 1965 
when I, along with thousands of other Montagnards, were recruited and 
trained by the U.S. Special Forces to fight alongside American soldiers 
during the Vietnam War. In 1970, while serving in the Province 
Reconnaissance Unit (PRU), I was hit by pieces of B40 artillery from 
the North Vietnamese Communists which injured my right eye and broke my 
left wrist and hand. After 3 months in the hospital, even though my 
right eye was completely blind I still returned to serve as a janitor 
for the special military unit until the end of the war in 1975.
    In April of 1975 when North Vietnamese Communists took over South 
Vietnam I was arrested and imprisoned for 6 years as a political 
prisoner because I had fought alongside the Americans. In 1981, I was 
released from prison and I returned to a life of farming in my home 
village. In 1992 I applied for the Humanitarian Operation (HO) refugee 
resettlement program created for political prisoners. My wife, K Keo, 
and I were resettled in the U.S. in 1996 with our young son K'Hung.
    We both found jobs shortly after we arrived in the U.S. working in 
a bakery. Three months later I was laid off of work because of my 
disabilities. I then applied for SSI benefits. My wife continued to 
work until 2001 and when she was laid off she also applied for SSI 
benefits because of her age. We both have our green cards and are 
permanent legal residents but our SSI benefits were cut in February of 
2003 because of the 7-year time limit. While it has been expected that 
7 years would be enough time for us to obtain our naturalization, it is 
not. The majority of Montagnard refugees who were resettled in the U.S. 
were over 60 years old at the time of resettlement. Having had little 
to no formal education in the central highlands of Vietnam and being 
much older when we finally had access to education in the U.S., 
learning English in order to take the naturalization exam has been very 
difficult. Currently, I am enrolled in English classes through the 
assistance of the Montagnard Human Rights Organization, Lutheran Family 
Services and Catholic Social Services in hopes that I will, one day, be 
proficient enough to take and pass the naturalization exam to become a 
U.S. citizen. This is also the hope of many other Montagnard elders in 
our community who have lost or will soon be losing their SSI.
    Since the loss of our SSI benefits, the only source of assistance 
my wife and I receive is food stamps of $280 a month. We have no 
income. For this reason, our 20 year old son has had to leave his full-
time enrollment in school to work full-time to help us financially 
while going to school part-time. At the young age of 20, our son has to 
delay his own educational goals to help us provide food, shelter and 
other necessities for our family because we no longer receive SSI.
    Mr. Chairman, the Montagnard community is very thankful that a 
handful of us were able to leave the central highlands after the fall 
of South Vietnam in 1975 to be resettled in the United States of 
America, the most wonderful and powerful country in the world. To this 
day, indigenous Montagnards continue to be persecuted for their 
Christian faith in Vietnam. We came with great pain, suffering and 
loss, but also the promise that we would be treated with the dignity we 
deserved as friends, and in many ways, as veterans of the United 
States. The Montgnard people are grateful for the kindness, love and 
sanctuary our community has found here in our new homes in the United 
States. Montagnards have been here since 1986 and enjoy the real 
freedom America provides, especially the freedom of religion.
    I am here today as a voice for many others in the ethnic Montagnard 
community who could not be here themselves. I urge that congress act to 
provide immediate relief for those who have lost their SSI benefits 
through an extension of the time limit for elderly and disabled 
refugees as well as a long term solution to prevent others from losing 
their main source of support.
    Again, thank you so much for the privilege to testify today. God 
bless you and bless America.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you and thank you for your help 
to our troops in the Vietnam War as well. Ms. Hill is the 
senior vice president for social policy at Catholic Charities.

STATEMENT OF CANDY HILL, J.D., SENIOR VICE PRESIDENT FOR SOCIAL 
               POLICY, CATHOLIC CHARITIES, U.S.A.

    Ms. HILL. Good afternoon and thank you, Chairman McDermott 
and Ranking Member Weller for this opportunity to be here to 
represent Catholic Charities U.S.A. in 171 diocesans and 
agencies and 1,500 affiliates across the country that serve 
more than 7.5 million people a year. We also are one of the 
largest resettlement organizations in the United States and are 
a partner with the government in providing services to people 
who have fled their homeland because of terrible persecution, 
deprivation and even torture before being lawfully admitted to 
our country.
    By definition individuals who qualify for Supplemental 
Security Income are severely disabled and have little or no 
income. Very poor and often without shelter, food or relatives, 
many humanitarian immigrants turn to Catholic Charities and 
other charitable organizations, homeless shelters and soup 
kitchens to meet their most basic needs. Without SSI, they are 
forced to live in emergency shelters for long periods of time, 
unable to even afford a single room, often with mental health 
issues and physical disabilities and may have no access to 
needed health care services such as prescription drugs or long-
term therapies. Without SSI benefits, many humanitarian 
immigrants will sink deeper into poverty and often suffer poor 
physical and mental health.
    Congress originally thought seven years would be enough 
time for refugees and asylees to become naturalized citizens 
and thereby preserve their SSI eligibility. However, many 
refugees and asylees have not been able to make it all the way 
through this process for a variety of factors, including 
significant backlogs at Federal immigration offices and new 
procedures after 9/11.
    No one should go without the basic needs to preserve his or 
her dignity. We have a moral obligation to lift up those who 
are tied down by the bonds of poverty and in spite of our best 
efforts to assist these people in playing by the rules, we are 
falling behind because the rules were created that placed 
restrictions and limits on public benefits with the assumption 
that the naturalization system would work in a way that would 
not penalize those who are most in need. We invited them here 
to our country because of the conditions in their own country 
where they were suffering, devoid in many cases of their 
dignity, leaving behind the only life they know and suffering 
beyond our comprehension. We offered them hope and a place 
where they could be treated with dignity and respect. 
Unfortunately, we have also created obstacles here for them. 
Try as they might, playing by the rules, not hiding in the 
shadows, they are being penalized for a system that is broken. 
Now through no fault of their own face the loss of their 
ability to meet their own basic needs and the loss of their 
human dignity.
    We are not here to talk about the merits of the system, we 
are here to talk about the reality of the people who are 
legitimately present and the suffering that is occurring 
because of that system. It is hard for many of us in this room 
to relate to the experience of the people who are affected by 
this issue that we bring before you today. In 1999, I had the 
privilege of working with the Kosovo refugees who came to this 
country, a learning experience that has changed my life because 
I fully realized at that point how lucky all of us are that we 
are born under this flag, that we are able to sleep at night 
without the thought of intrusion by military forces, to be 
persecuted for our religious beliefs, and are able to protect 
our own families. These people have not been able to do that in 
their own country and have come to our shores for our 
protection.
    We call on this Committee and the Congress to provide the 
necessary leadership to address this crisis. Your leadership 
can provide a solution that speaks to the dignity and respect 
of these vulnerable people. Congress should enact legislation 
to prevent this vulnerable population from suffering any 
further hardship. At a minimum, Congress should extend the time 
limit to provide a more realistic opportunity for individuals 
to be naturalized. Congress should also broaden the English 
language waivers in recognition of the difficulties that many 
elderly persons, who are not proficient in their homeland 
language, have in the obstacles in learning a new language. 
Ideally, Congress should eliminate the time limit on SSI 
benefits for elderly and disabled refugees by de-linking 
eligibility for public benefits with U.S. citizenship. People 
should become citizens out of an attachment to the United 
States, not a forced economic decision to avoid destitution.
    Thank you.
    [The prepared statement of Ms. Hill follows:]
   Prepared Statement of Candy Hill, J.D., Senior Vice President for 
               Social Policy, Catholic Charities, U.S.A.
    Mr. Chairman, on behalf of Catholic Charities U.S.A.'s 171 diocesan 
agencies and more than 1,500 affiliates serving more than 7.4 million 
people annually, thank you for the opportunity to present testimony 
regarding Supplemental Security Income (SSI) Assistance for Elderly and 
Disabled Refugees and other humanitarian immigrants.
    Catholic Charities U.S.A. has a continuing interest in the well 
being of humanitarian immigrants in the United States. Through the 
Migration and Refugee Services offices of the United States Catholic 
Conference of Bishops, Catholic Charities agencies have a long history 
in resettling refugees. Catholic Charities agencies provide refugee 
resettlement services as well as long-term support to individuals and 
families that have suffered terrible persecution, deprivation, and even 
torture before being lawfully admitted to our country. We also make 
every effort to help them become U.S. citizens. Catholic Charities 
agencies provide assistance to nearly 70,000 refugees annually, some of 
whom are elderly or disabled. Our agencies' staff help these 
individuals navigate the application process, contact medical 
professionals and assemble medical histories, fill out required forms, 
and provide encouragement and support by helping them in their 
transition from their home country to safety and security in our 
country.
    Humanitarian immigrants are individuals the U.S. Department of 
State have sought, in consultation with the United Nations, to assist 
with resettlement to this country in order to protect them from further 
persecution and harm. Refugees and other humanitarian immigrants 
account for 10 percent or less of the annual legal immigrant admission. 
Humanitarian immigrants include Russian Jews and other religious 
majorities who fled the former Soviet Union, Iraqi Kurds fleeing 
persecution under the Saddam Hussein regime, Cubans fleeing the Castro 
regime, Hmong immigrants from the highlands of Laos who served on the 
side of the U.S. military during the Vietnam war, persecuted minorities 
in Somalia, Kosovo refugees fleeing Serbians forces and persons from 
various regions of the former Yugoslavia displaced by the Balkan wars.
    Humanitarian immigrants who are of advanced age and/or totally and 
permanently disabled and who are bereft of personal and material 
resources need on-going income support as well as social and health 
services. Many of these individuals arrive in our country after fleeing 
for their lives arrive without relatives and only the clothes on their 
backs. Such long-term need is beyond the capacity of religious and 
charitable organizations. The SSI program is literally a lifeline for 
such immigrants. The United Nations High Commissioner for Refugees has 
expressed concern that eliminating essential social services like SSI 
from refugees after seven years falls short of the durable solution 
resettlement is intended to offer elderly and disabled individuals.
    While we know that we must expand our own commitments to meet 
humanitarian needs as social service agencies, we also know that faith-
based groups and other non-profit sector organizations do not have the 
resources to replace those functions which are the legitimate 
responsibility of government and the private sector. Catholic Social 
Teaching tells us that one of government's central responsibilities is 
to ensure that no one goes without the basic material necessities of 
life. The basic necessities are moral rights, and it is ultimately the 
government that has the responsibility to protect these rights.
    The U.S. Government provides monthly Supplemental Security Income 
payments to refugees and other humanitarian immigrants 65 and over, 
blind and disabled individuals to help meet basic needs for food, 
clothing and shelter. In 2007, individual SSI beneficiaries receive 
monthly payments of up to $623 and married couples receive up to $934. 
In some states this amount is supplemented. In addition, many states 
link SSI and Medicaid eligibility by allowing SSI recipients to 
automatically qualify for Medicaid. This coverage is vital for people 
with health problems and disabilities. However, thousands of refugees, 
asylees, and legal immigrants are now being left destitute as a result 
of losing their SSI benefits due to a change in the mid-1990's Welfare 
Law. According to the Social Security Administration, nearly 12,000 
elderly and disabled refugees, and other legal immigrants have already 
loss their SSI benefits and it is estimated that another 40,000 will 
lose benefits over the next decade.
    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (PRWORA) severely reduced the availability of federal programs 
for immigrants and aliens. \1\ Under PRWORA, most immigrants are 
ineligible to receive federal means-tested benefits for their first 
five years in the United States and are not eligible for SSI or the 
Food Stamp Program (FSP) at all. It should be remembered that PRWORA 
sought to make elderly and disabled refugees ineligible for SSI and 
food stamps as a budget cutting measure and direct more people into 
paid employment, even though elderly and disabled refugees by their 
circumstances are not employable. Humanitarian immigrants, however, 
were granted a full exception to the restriction on federal means-
tested benefits and were allowed to retain their eligibility for SSI 
and food stamps for a limited amount of time. \2\
---------------------------------------------------------------------------
    \1\ Personal Responsibility and Work Opportunity Act of 1996, Pub. 
L. No. 104-193, 110 Stat. 2105.
    \2\ States were given the option to place their own limitations on 
certain federal programs administered at the State level (TANF, SSBG, 
and Medicaid) but humanitarian immigrants were also given a time-
limited exception from these possible limitations as well. Personal 
Responsibility and Work Opportunity Act of 1996 Sec. 402(b) (codified 
as amended at 8 U.S.C. Sec. 1612(b)).
---------------------------------------------------------------------------
    SEC. 402(a)(2)(A) TIME-LIMITED EXCEPTION FOR REFUGEES AND ASYLEES--
Paragraph (1) shall not apply to an alien until 5 years after the date 
[he is granted status as a humanitarian immigrant.] \3\
---------------------------------------------------------------------------
    \3\ Personal Responsibility and Work Opportunity Act of 1996 
Sec. 402(a)(2)(A) (codified as amended at 8 U.S.C. Sec. 1612(a)(2)(A)).
---------------------------------------------------------------------------
    In the years following the enactment of PRWORA, Congress passed 
several amendments designed to ease some of the restrictions on SSI and 
FSP eligibility for certain immigrants. Most notably, at one of the 
first opportunities to offer technical amendments to PRWORA, Congress 
extended the time-limited exception to the categorical bar on SSI 
eligibility from 5 to 7 years for certain humanitarian immigrants. \4\ 
Section 402(a)(2)(A) was amended to read as follows:
---------------------------------------------------------------------------
    \4\ Balanced Budget Act of 1997 Sec. 5302, Pub. L. No. 105-33, 111 
Stat. 251 (codified as amended at 8 U.S.C. 1612(a)(2)(A)).
---------------------------------------------------------------------------
    SEC. 402(a)(2)(A) TIME-LIMITED EXCEPTION FOR REFUGEES AND ASYLEES--
With respect to the specified Federal programs described in paragraph 
(3), paragraph (1) shall not apply to an alien until 7 years after the 
date [he is granted status as a humanitarian immigrant.] \5\
---------------------------------------------------------------------------
    \5\ The amendment contained in The Balanced Budget Act of 1997 
actually amended this provision to read somewhat differently, but the 
Agricultural Research, Extension, and Education Reform Act of 1998 
amended the food stamp provisions and resulted in the language of 
current law. Agricultural Research, Extension, and Education Reform Act 
of 1998 Sec. 503, Pub. L. No. 105-185, 112 Stat. 523, (codified at 8 
U.S.C. 1612(a)(2)(A)).
---------------------------------------------------------------------------
    Thus, Congress created a system to incentivize naturalization by 
limiting the time a humanitarian immigrant could receive SSI benefits 
as a non-citizen. While 7 years may have seemed sufficient to 
accomplish this task without needlessly penalizing old and disabled 
humanitarian immigrants, reality tells a different story.
    This restrictive time limit has fallen hardest on people who fled 
persecution or torture in their home countries and subsequently came to 
the U.S. empty-handed--Jews from the former Soviet Union, Iraqi Kurds, 
Cubans, Hmong, Kosovo refugees and others--who are now too elderly or 
disabled to support themselves.
    To fully understand the continued significance of these modified 
restrictions on humanitarian immigrants receiving SSI it is necessary 
to look at the eligibility requirements for SSI and the naturalization 
process.
    SSI provides a modest cash benefit of $623 to persons who have very 
limited resources and are elderly, blind, or have a significant 
disability. To qualify for SSI, in addition to being poor a person must 
be:

    <bullet>  Age 65 or older,
    <bullet>  Blind, or
    <bullet>  Unable to engage in substantial gainful activity as a 
result of a medically determinable physical or mental impairment that 
will result in death or will last a period of at least 12 consecutive 
months. \6\
---------------------------------------------------------------------------
    \6\ Additionally, applicants must agree to apply for other cash 
benefits for which they may be eligible, reside in one of the 50 
states, District of Columbia, of Northern Mariana Islands, and be a 
United States citizen or a qualified alien.

    Humanitarian immigrants represent a narrow subset of SSI 
beneficiaries. Humanitarian immigrants have sought refuge and 
protection in the United States after fleeing untold horrors of 
persecution and abuse, face grievous circumstances, and are often in 
dire need of federal assistance. They may have been forced to leave 
their family behind and often have no other means of support.
    Taken together, these individuals are poor, elderly or disabled, 
and have suffered or fled persecution and abuse in their home countries 
and Congress chose to exempt them from the generally applicable 
restrictions on SSI and food stamps.
    Unfortunately, some of the elderly and disabled immigrants who are 
most in need of income support are also least likely to be able to 
naturalize. The challenging and complicated requirements of the 
citizenship application process, which are sensible and necessary to 
make naturalization a serious and significant step for most applicants, 
are beyond the capacity of humanitarian immigrants who were denied 
education in their home countries and who are not literate in any 
language. Achieving sufficient mastery of the English language to pass 
the test is clearly beyond their potential.
    In order to naturalize, an applicant must first become a lawful 
permanent resident (LPR). Humanitarian immigrants must be 
fingerprinted, complete the ``Application To Register Permanent 
Residence or Adjust Status'' form, complete the ``Biographic 
Information'' form, submit ``Evidence of Asylee Status'' or 
``Application by Refugee for Grounds of Excludability,'' submit 
evidence of having resided in the United States for one year (including 
documenting any absences during the period of residence), submit a 
birth certificate or birth record, submit a ``Medical with Vaccination 
Supplement,'' and pay the associated filing and fingerprinting fees.
    The large numbers of citizenship applications, combined with other 
factors (including the requirement for more rigorous background check 
requirements following the terrorist attacks of September 11, 2001) 
have resulted in a multi-year administrative backlog at USCIS. In July 
2006, the USCIS reported a backlog of over 1.1 million naturalization 
applications. \7\ Of those applications, 140,000 cases were considered 
under USCIS control. The nearly one million remaining applications 
included cases considered outside USCIS' control because the agency was 
waiting for the Federal Bureau of Investigation (FBI). The FBI has 
acknowledged that USCIS' name check requests outpace the FBI's 
available resources for name checks. \8\ Through no fault of the 
applicant, these administrative delays can cause the naturalization 
process to take longer than the 7 years envisioned by section 
402(a)(2)(A). According to the Migration Policy Institute, the median 
number of years between legal immigration and naturalization has been 
eight years for individuals who became U.S. citizens in 2002 through 
2005. But the process is likely to take longer for humanitarian 
immigrants. \9\
---------------------------------------------------------------------------
    \7\ U.S. Citizenship and Immigration Services News Release, ``USCIS 
Announces Elimination of Naturalization Application Backlog,'' http://
www.uscis.gov/files/pressrelease/n400Bklg091506NR .pdf
    \8\ Supplemental Declaration of Michael A. Cannon, Section Chief of 
the National Name Check Program Section at the Federal Bureau of 
Investigation, filed in Yakuba v. Chretoff, No. 1:06-cv-3203-ERK-RLM 
(Eastern District of New York), August 31, 2006, paragraph 21.
    \9\ Jeane Batalova, ``Spotlight on Naturalization Trends,'' 
Migration Policy Institute, http://www.migrationinformaiton.org/
USfocus/display.dvm?ID+421#14
---------------------------------------------------------------------------
    Asylees face additional difficulties because of asylee adjustments 
to LPR status. Like refugees, they must wait for at least one year 
after being granted asylum before adjusting to LPR status. Prior to May 
2005, the number of ayslees that could adjust to LPR status each year 
was capped at 10,000 regardless of the number of individuals that 
actually had been granted asylum. \10\ As a result of the cap and 
processing delays, a backlog of adjustment applications formed. 
According to USCIS, as of April 2006 nearly 113,000 asylees were 
awaiting processing of their applications to adjust to LPR status. \11\ 
USCIS estimated that for applications that already have been submitted, 
the wait for processing could exceed 4 years, though the agency intends 
to process applications submitted after April 1, 2007 within six 
months. \12\ After having adjusted to LPR status, to apply for 
citizenship, asylees must have resided continuously in the U.S. with 
LPR status for at least four years. \13\ This has resulted in a backlog 
of eligible applicants that extend far beyond the 7 years envisioned by 
section 402(a)(2)(A). For a typical asylee granted asylum today, the 
wait to naturalize will be 15 years or more. \14\
---------------------------------------------------------------------------
    \10\ The REAL ID Act of 2005 (P.L. 109-13) eliminated the cap.
    \11\ U.S. Citizenship and Immigration Services, ``Asylee or Refugee 
Seeking Lawful Permanent Resident Status, http://www.uscis.gov/portal/
site/uscis/menuitem.5af9bb95919f35e66f 614176543f6d1a/
?vgnextoid=207796981298d0
    \12\ Ibid.
    \13\ Asylees are required to have had LPR status for five years 
before applying for naturalization. But there is a special rule that 
allows them to start counting their LPR status as having begun one year 
before the date on which their LPR application was approved. Thus, 
asylees must wait four years from the time their LPR application is 
approved before applying to naturalize. In addition, the naturalization 
application may be submitted 90 days before the date on which the 
asylee will have had LPR status for five years (refugees may also 
submit their applications 90 days before having been in the United 
States for five years). American Immigration Lawyers Association, 
``Some Common Questions about Naturalization,'' accessed January 16, 
2007, http://www.aila.org/Content/default.aspx?docid=21334.
    \14\ Estimates of asylees in this backlog range from 140,000 (see 
Eduardo Aguirre, Director, U.S.Citizenship and Immigration Services, 
Prepared Remarks before the Migration Policy Institute, Sept 3, 2003) 
to 160,000 (see Declaration of Mark A. Rohrs, Supervisory Center 
Adjudications Officer for the Department of Homeland Security, 
Citizenship and Immigration Services, Nebraska Service Center, Vukaj v. 
Ridge, No. 03-72676 (E.D.Mich. Feb. 19, 2004)).
---------------------------------------------------------------------------
    The road to citizenship is lengthy and difficult for the average 
immigrant. This process is exacerbated for old and disabled immigrants 
who have difficulty meeting some of the naturalization eligibility 
requirements.
    An eligible applicant with LPR status can apply for naturalization 
if they:

    (1)  Are 18 yrs or older,
    (2)  Have been an LPR for the previous 5 years (unless a member of 
the Armed Forces or married to a citizen),
    (3)  Pass an English language test,
    (4)  Pass a U.S. Civics test,
    (5)  Are willing to support the Constitution of the U.S. and be 
willing to take an Oath of Allegiance to the U.S. \15\
---------------------------------------------------------------------------
    \15\ Immigration and Nationality Act Sec. 312(a).

    Humanitarian immigrants are frequently illiterate both in English 
and in their native language. This severe lack of education often 
combined with the presence of mental and physical impairments (due to 
age or disability) present obvious difficulties for them as they seek 
to naturalize.
    In addition, applicants must pay $400 in fees, and USCIS proposes 
increasing the fees associated with naturalization to $660 \16\ For an 
individual relying solely on SSI benefits, the current fees alone 
amount to nearly two-thirds of one month's income and the proposed fee 
of $660 would exceed the monthly maximum benefit for an individual. 
Although partial fee waivers are available at the discretion of USCIS, 
as a practical matter it is difficult for humanitarian immigrants to 
apply for fee waivers without the assistance of an aid organization or 
attorney. Many humanitarian immigrants are not aware that fee waivers 
are available and the waiver request must include an affidavit, which 
is difficult to prepare properly without assistance. Also, USCIS has 
avoided providing a form to request fee waivers, thereby leaving 
applicants to construct and present evidence of financial need on their 
own.
---------------------------------------------------------------------------
    \16\ Federal Register, February 1, 1007, ``Adjustment of the 
Immigration and Naturalization Benefit Application and Petition Fee 
Schedule,'' Proposed Rule, http://a257.g.akamaitech.net/7/257/2422/
01jan20071800/edocket.access.gpo.gov/2007/pdf/E7-1631.pdf.
---------------------------------------------------------------------------
    Catholic Charities U.S.A. and other organizations partnered 
extensively with both USCIS and the former INS to develop the extensive 
regulations and policy guidance designed to ensure compliance with the 
Rehabilitation Act of 1973. \17\ This regime provides applicants that 
do not meet the criteria for disability waivers an opportunity to meet 
the naturalization requirements with the aid of reasonable 
accommodations. For example, an applicant unable to take a written test 
would be permitted to take the test orally. Another example is, if an 
applicant requiring fingerprints is unable to report to a service 
center due to a disability, USCIS personnel may arrange alternate means 
of taking the fingerprints, such as by sending an agent to the 
applicants residence.
---------------------------------------------------------------------------
    \17\ Section 504 of the Rehabilitation Act, Pub. L. No. 93-112, 87 
Stat. 355 (codified at 29 U.S.C. 794(d)), requires accommodations for 
applicants with physical and mental impairments. A disability is a 
medically determinable physical or mental impairment or combination of 
impairments which has lasted or is expected to last at least 12 months.
---------------------------------------------------------------------------
    Separate from the modifications required by the Rehabilitation Act, 
extremely disabled applicants may qualify for disability-based 
exceptions, which are a statutory requirement of the Immigration and 
Nationality Act. \18\ To qualify for such a disability waiver, 
applicants must have a ``medically determinable impairment'' that 
results from ``anatomical, physiological, or psychological 
abnormalities which can be shown by medically acceptable clinical or 
laboratory diagnostic techniques to have resulted in functioning so 
impaired as to render an individual unable to demonstrate an 
understanding of the English language or U.S. Civics.'' \19\ These 
waivers are available only under fairly limited situations. \20\
---------------------------------------------------------------------------
    \18\ Immigration and Nationality Act Sec. 312(b).
    \19\ 8 C.F.R. 312.1, 312.2.
    \20\ Statutory accommodations are generally only available for the 
English and U.S. Civics requirements. There is at least one exception 
to this statement. In 2000, Senator Hatch (R-UT) introduced and 
Congress passed legislation that authorizes USCIS to waive the 
requirement to take the oath of allegiance if an individual has a 
disability or mental impairment that prevents him or her from being 
able to understand the meaning of the oath or to communicate an 
understanding of the oath requirement. Pub. L. No. 106-448, 114 Stat. 
1939.
---------------------------------------------------------------------------
Age-Based Exemptions and Exceptions
    (1)  An applicant who is age 50 or older may have the English test 
waived if they have accumulated 20 years as an LPR. In this case, the 
U.S. Civics test would be given in the applicant's native language. 
\21\
---------------------------------------------------------------------------
    \21\ Immigration and Nationality Act Sec. 312(b)(2)(A).
---------------------------------------------------------------------------
    (2)  An applicant who is age 55 or older may have the English test 
waived if they have accumulated 15 years as an LPR. In this case, the 
U.S. Civics test would be given in the applicant's native language. 
\22\
---------------------------------------------------------------------------
    \22\ Immigration and Nationality Act Sec. 312(b)(2)(B).
---------------------------------------------------------------------------
    (3)  An applicant who is age 65 or older may have the English test 
waived if they have accumulated 20 years as an LPR. In this case, they 
are eligible to take a simplified version of the U.S. Civics test in 
the applicant's native language. \23\
---------------------------------------------------------------------------
    \23\ Immigration and Nationality Act Sec. 312(b)(3).

    There are no provisions for a complete waiver of the U.S. Civics 
test requirement based solely on age.
    Despite the importance of these accommodations and exceptions for 
the naturalization applicants that they reach, they are ineffective in 
assisting those humanitarian immigrants who have lost or are in danger 
of losing SSI benefits as a result of PRWORA's time-limited exemption.
    While the age-based exceptions will help those who have been 
present in the United States for significant periods of time, more 
recent humanitarian immigrants have and will lose their SSI benefits 
long before they are eligible for an age-based waiver. And older 
immigrants often do not qualify for either reasonable accommodation 
under the Rehabilitation Act or disability waivers under the INA.
Consider the following examples:
    <bullet>  Efim and Faina Rabinovich entered the U.S. as refugees 
from the former Soviet Union (Latvia) in August of 1996. Efim has been 
seriously ill since June 1997 and now suffers from advanced Parkinson's 
disease. Due to his poor health, he is often unable to leave his home 
for immigration interviews. As a result his fingerprints (which must 
accompany the adjustment of status application) have repeatedly 
expired, and the adjudication of his naturalization application has 
been delayed. These processing delays and the couple's illnesses have 
made it impossible for them to naturalize within seven years of their 
arrival in the United States.

    As thousands of humanitarian immigrants have lost or will lose 
their SSI eligibility due to the 7 year time limit provision of the 
welfare law, many of the organizations that are serving these very 
vulnerable immigrant populations have encountered immigrants in 
desperate situations that signify a significant problem:

    <bullet>  A Catholic Charities agency in Des Moines, IA reports the 
case of a married couple, ages 75 and 70. Both fled to the U.S. from 
Vietnam and they have been unable to find employment because of their 
age and physical disabilities. Both receive federal SSI benefits, but 
neither has been able to naturalize because of an inability to learn 
English. Both are at risk of losing their SSI benefits, currently their 
only means of support.
    <bullet>  A 68-year-old Ukrainian immigrant who fled her home 
country to avoid religious persecution is an SSI recipient in the U.S. 
She is still two years away from losing her SSI benefits and is 
studying hard in hopes of being able to learn English well enough to 
complete the naturalization testing requirements. But because she is in 
old age, she has had difficulty remembering how to write and speak the 
new language, even after a lot of time and effort put into studying. 
There is a good chance that she will be unable to learn English 
sufficiently well to pass the naturalization test before her SSI 
benefits expire.
    <bullet>  A 78 year old refugee from Somalia has never been to 
school in his life. As an SSI recipient, the clock is ticking against 
him as he perseveres in hope of learning English well enough to pass 
the naturalization testing requirement before his SSI benefits expire 
in 2 years. His monthly SSI disability check is his only source of 
income.
    <bullet>  A 72 year old cancer survivor and his 75 year old 
diabetic wife, Cuban refugees now residing in Florida, were among the 
thousands of humanitarian immigrants facing loss of their SSI benefits 
in 2004. These two were lucky; a social worker helped them to apply for 
citizenship. But after receiving notice that his and his wife's SSI 
benefits might be terminated, the 72 year old recounts, ``it just about 
gave me a heart attack--the fear, the worrying.''

    Elderly immigrants often have difficulty learning a new language 
due to their age or other impairments. Many have little or no 
education, learning disabilities, and other circumstances that create 
insurmountable obstacles for them as they attempt to naturalize. Since 
these serious impairments are not a result of a diagnosable disorder, 
many elderly immigrants will not qualify for a disability-based 
reasonable accommodation to the naturalization process and, as a 
result, may never naturalize or be eligible for benefits.
    By definition, individuals who qualify for Supplemental Security 
Income are severely disabled and have little to no income. Very poor 
and often without shelter, food, or relatives, many humanitarian 
immigrants turn to Catholic Charities' and other charitable 
organization's homeless shelters and soup kitchens to meet their most 
basic needs. Without SSI, they are forced to live in emergency shelters 
for long periods of time, unable even to afford a Single Room Occupancy 
unit or other low income housing. Individuals who are the most 
vulnerable--with mental health issues and physical disabilities--may 
have no access to needed health care services such as prescription 
drugs or long term therapies. Without SSI benefits many humanitarian 
immigrants will sink deeper into poverty, and suffer poor physical and 
mental health.
    No one should go without the basic needs to preserve his/her human 
dignity. We have a moral obligation to lift up those who are tied down 
by the bonds of poverty. In spite of our best efforts to assist in 
playing by the rules, we are failing because rules were created that 
place restrictions and limits on public benefits with the assumption 
that the naturalization system would work in a way that would not 
penalize those in need. We invited them here because of the conditions 
in their own country where they were suffering devoid in many cases of 
their dignity--leaving behind the only life they know--and suffering 
beyond our comprehension. We offered them hope--and a place where they 
could be treated with dignity and respect. We call on the Committee to 
provide the necessary leadership to address this crisis--your 
leadership can provide a solution that speaks to the dignity of respect 
of these vulnerable people.
    In the years following the enactment of PRWORA, there have been a 
number of technical and substantive legislative amendments designed to 
restore fairness to vulnerable immigrant populations.
    Congress should enact legislation to prevent this vulnerable 
population from suffering further hardship. At a minimum, Congress 
should extend the time-limit to provide a more realistic opportunity 
for individuals to naturalize. Congress should also broaden the English 
language waivers in recognition of the difficulties many elderly 
persons have obtaining proficiency in a new language. Ideally, Congress 
should eliminate the time limit on SSI benefits for elderly and 
disabled refugees by de-linking eligibility for public benefits with 
U.S. citizenship. People should become citizens out of attachment to 
the U.S., not a forced, economic decision to avoid destitution. These 
recommendations are proposed in a document called A More Perfect Union: 
A National Citizenship Plan--a study prepared by the Catholic Legal 
Immigration Network, Inc. resulting from two years of research and over 
100 interviews with immigration and naturalization experts.
    Mr. Chairman, I thank you for your time.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. Ms. Thor is the 
director of the Southeast Asia Resource Action Center. Welcome.

  STATEMENT OF DOUA THOR, EXECUTIVE DIRECTOR, SOUTHEAST ASIA 
                     RESOURCE ACTION CENTER

    Ms. THOR. Good afternoon. Thank you, Mr. Chairman, and 
Members of Congress for this opportunity. My name is Doua Thor, 
I serve as the executive director for an organization called 
the Southeast Asia Resource Action Center. We are a national 
refugee organization managed primarily by and for Americans 
with heritage from Cambodia, Laos, and Vietnam. I myself came 
as a refugee to the United States and the daughter of a Hmong 
soldier who was recruited by the United States during the 
Central Intelligence Agency in what is known now as the 
``Secret War'' in Laos.
    So, people from the Southeast Asian countries of Cambodia, 
Laos, and Vietnam constitute the largest group of refugees ever 
to arrive in the United States and many fell actually victim to 
the genocide that ensued after the takeover. Desperate families 
fled by thousands on foot, by boat, or if they were lucky, on 
the few U.S. planes that returned for them.
    The U.S. has historically been a safe haven for many 
fleeing persecution and war in the homelands. Humanitarian 
immigrants who are affected by the 7 year SSI eligibility time 
limit are from the former Soviet Union and Eastern Europe, 
Russian Jews who fled the former Soviet Union. Other recent 
groups of humanitarian immigrants include Cubans fleeing the 
Castro regime and persecuted minorities from Somalia. Many such 
as the Hmong in Montagnards risked everything that they had to 
fight bravely and honorably alongside American soldiers in 
times of war.
    For many elderly and disabled refugees and other 
humanitarian immigrants, SSI is their lifeline. Many arrive 
having little to no access to formal education and are either 
unable to obtain employment due to language barriers and 
disabilities, advanced age or a combination of all of the 
above. Because of the trauma that many humanitarian immigrants 
have faced, barriers to employment can also include a wide 
range of disabilities, such as life-threatening or serious 
illnesses and mental health issues. For these populations, SSI 
provides the bare minimum, of which Mr. Chairperson mentioned 
earlier, no more than $623 per month for an individual and $934 
for a couple. The average monthly payment in 2007 was $466. 
However, with the 7 year time limit, refugees and other 
humanitarian immigrants face destitution once they are no 
longer eligible for SSI.
    In order to continue receiving SSI, refugees and 
humanitarian immigrants must obtain their citizenship with an 
often unrealistic timeframe of 7 years. It is unrealistic for 
many because the path of citizenship is lengthy and compete 
with barriers and bureaucratic roadblocks. Refugees and 
humanitarian immigrants must reside in the U.S. for at least 1 
year before they can be eligible to apply for lawful permit and 
residency or a green card. After which, they must wait an 
additional 5 years to be eligible to apply for naturalization. 
Within those 6 years, a number of obstacles may prolong the 
process, increase fees, backlogs, processing delays, background 
checks, fingerprints, and many other issues. The median number 
of years between legal immigration and naturalization for 
persons who have become U.S. citizens between 2002 and 2005 has 
been around 8 years. The path to obtaining citizenship can take 
much longer and for many refugees and humanitarian immigrants 
who are eligible and receive SSI, they will need more time.
    As one of the steps to obtaining citizenship, individuals 
must demonstrate the comprehension of the English language and 
also pass an exam in U.S. history and civics. Many refugees and 
humanitarian immigrants have little or no form of formal 
education, which makes learning very difficult. In addition to 
learning disabilities, it is known that with advanced age, the 
ability to learn and retain new information becomes less likely 
and often impossible for many. Because of such barriers, simply 
obtaining the English capacity to naturalize becomes a goal 
that is unachievable for a number of most vulnerable and 
disabled refugees, especially for those who fought on behalf of 
the United States and have become allies to this country and 
represent what it means to be an American but may not be able 
to pass the civics exam.
    Increasing application fees also contribute to the delay in 
naturalization. The current cost of the naturalization 
application is $330, which is over 70 percent of the average 
SSI payments made in January of 2007. Recently, CIS has 
proposed a fee increase to citizenship change of the 
application that would bring the cost of naturalization 
applications up to $595, well over the average SSI payments 
made in January 2007. High fees further delay and often 
prohibit those who receive and depend on modest SSI benefits 
from attaining citizenship.
    I urge Congress to ensure the needs of disabled and elderly 
refugees are made a priority in the 110th Congress to prevent 
this vulnerable population from further hardships and setbacks. 
Congress should enact legislation, as mentioned by Ms. Hill, to 
dealing SSI eligibility from U.S. citizenship for refugees and 
humanitarian immigrants. At the very least, Congress should 
provide a stop-gap measure of extending the 7 year limit on SSI 
eligibility.
    Thank you.
    [The prepared statement of Ms. Thor follows:]
          Prepared Statement of Doua Thor, Executive Director,
                 Southeast Asia Resource Action Center
Barriers to Citizenship, SSI and the Poverty Impact on Disabled and 
        Elderly Refugee and Humanitarian Immigrants
    Good afternoon. First of all, I would like to thank the Chairman 
for his extensive work with refugee communities and for highlighting 
this very important issue of the impact of the SSI time limit on 
elderly and disabled refugees and other humanitarian immigrants. My 
name is Doua Thor and I currently serve as the Executive Director of 
the Southeast Asia Resource Action Center, also known as SEARAC. Based 
in Washington, DC, SEARAC is a national nonprofit refugee organization 
managed primarily by and for Americans with heritage in Cambodia, Laos 
and Vietnam.
    I was born in Laos, escaped to Thailand, lived in Ban Vinai refugee 
camp, and came to the United States with my own family fleeing 
persecution. I am a former refugee and the daughter of a Hmong soldier 
who was recruited by the United States CIA in what is now known as the 
``Secret War'' in Laos.
    People from the Southeast Asian countries of Cambodia, Laos, and 
Vietnam constitute the largest group of refugees ever to build new 
lives in the United States. Nearly all Hmong entered the U.S. as 
refugees or as relatives of refugees at various times after the end of 
the Vietnam War. The Hmong have a unique history with the United States 
and began to relocate to this country in 1975, after fighting alongside 
the U.S. soldiers, rescuing downed American pilots, and gathering 
intelligence for America's military forces during the Vietnam War. At 
the end of the ``Secret War,'' the American-supported South Vietnamese 
government succumbed to the military pressures of their communist 
neighbors to the north. The Hmong were then targeted for persecution 
and had to leave our home country for fear of losing their lives. Many 
fell victim to the genocide that ensued after the takeover. Desperate 
families fled by the thousands, on foot, by boat, or, if they were 
lucky, on the few U.S. planes that returned for them. \1\
---------------------------------------------------------------------------
    \1\ Pha Lo, Visiting the Hmong: America's Forgotten Refugees, 
Pacific News Service.
---------------------------------------------------------------------------
    Through the refugee resettlement process I fully understand, first 
hand, how difficult it is to start over in a new home, living in 
poverty.
    The U.S. has historically been a safe haven for many fleeing 
persecution and war in their homelands. Most of the humanitarian 
immigrants who are affected by the seven-year SSI eligibility time 
limit are from Russia or the former Soviet Union and Eastern Europe, 
including Russian Jews who fled the former Soviet Union and former 
Yugoslavs displaced by the Balkan war; other recent groups of 
humanitarian immigrants include Iraqi Kurds fleeing persecution under 
the Saddam Hussein regime, Cubans fleeing the Castro regime, and 
persecuted minorities from Somalia. \2\\,\\3\ Many, such as the Hmong 
and Montagnards, risked everything that they had to fight bravely and 
honorably alongside American soldiers in times of war.
---------------------------------------------------------------------------
    \2\ Zoe Neuberger, ``Loss of SSI Aid is Impoverishing Thousands of 
Refugees,'' Center on Budget and Policy Priorities, February 8, 2007.
    \3\ For more information on the national origin of humanitarian 
immigrants who would be affected by the SSI eligibility limit, see 
Fremstad, ``The Impact on the Seven-Year Limit on Refugees' Eligibility 
for Supplemental Security Income--Refugees from the Former Soviet Union 
and Eastern Europe are Most Affected.''
---------------------------------------------------------------------------
    In the U.S., according to the 2000 Census, Southeast Asians from 
Cambodia and Laos with disabilities are more likely to live in poverty, 
than Americans and other Asian Americans in general. Approximately 18 
percent of Americans with disabilities live in poverty. However, the 
rates for Southeast Asians are much higher in comparison; approximately 
28 percent of Cambodians, 39 percent of Hmong, 22 percent of Laotians 
and 18 percent of Vietnamese Americans with disabilities live in 
poverty.
    Disabilities are closely linked with poverty among Southeast Asian 
Americans. In fact, the 2000 Census found that in 1999, 44 percent of 
Cambodian households in poverty had disabled householders, as did 48 
percent of Hmong, 45 percent of Laotian and 38 percent of Vietnamese 
households below the poverty level. \4\
---------------------------------------------------------------------------
    \4\ 36 percent of U.S. households overall below the poverty level 
were found to have disabled householders, as were 30.8 percent of such 
Asian American households overall, see Southeast Asian American Elders 
in California: Demographics and Service Priorities Revealed by the 2000 
Census, October 2003, http://www.searac.org/sea-eldersrpt-fin.pdf
---------------------------------------------------------------------------
    In addition, Southeast Asian, elderly individuals who also have 
disabilities are at higher risk of poverty. For example, in the state 
of California alone, the disability rates for people aged 65 and over 
range from 63 percent for Laotians, to 68 percent for Cambodians, and 
71 percent for Hmong compared to approximately 42 percent for 
Californians overall.
    According to the Social Security Administration's 2004 SSI Annual 
Statistic Report, refugees and humanitarian immigrants account for only 
9.7% of all SSI recipients. \5\ It is estimated that 12,000 refugees 
and other humanitarian immigrants have already lost SSI benefits and 
another 40,000 will lose benefits over the next decade. \6\ It is 
unacceptable to force thousands of some the most vulnerable people into 
destitution, amongst them, those like K ' Keng who have risked their 
lives on behalf of America in the exact same way that American veterans 
and soldiers have.
---------------------------------------------------------------------------
    \5\ U.S. Social Security Administration, ``SSI Annual Statistical 
Report, 2004,'' http://www.ssa.gov/policy/docs/statcomps/ssi_asr/2004/
sect05.pdf
    \6\ Zoe Neuberger, ``Loss of SSI Aid is Impoverishing Thousands of 
Refugees,'' Center on Budget and Policy Priorities, February 8, 2007.
---------------------------------------------------------------------------
    For many elderly and disabled refugees and other humanitarian 
immigrants, Supplemental Security Income (SSI) is their lifeline. Many 
arrived in the U.S. having had little to no access to formal education 
and are either unable to obtain employment due to language barriers, 
disabilities, advanced age or a combination of all the above. Because 
of the trauma that many humanitarian immigrants have faced, barriers to 
employment can also include wide ranging disabilities such as life 
threatening or serious illness and mental health issues. For these 
populations, SSI provides the bare minimum for many, no more than $623 
per month for an individual and $934 for a couple, to afford the most 
basic needs of survival such as food, clothing and shelter. The average 
monthly payment in January 2007 was $466.70. \7\ However, with the 
seven year time limit, refugees and other humanitarian immigrants face 
destitution once they are no longer eligible for SSI.
---------------------------------------------------------------------------
    \7\ U.S. Social Security Administration, SSI Monthly Statistics, 
January 2007, http://www.ssa.gov/policy/docs/statcomps/ssi_monthly/
2007-01/table07.html
---------------------------------------------------------------------------
    In order to continue receiving SSI benefits, refugees and 
humanitarian immigrants must obtain their citizenship within an often 
unrealistic timeframe of seven years. It is unrealistic for many 
because the path to citizenship is lengthy and complete with barriers 
and bureaucratic road blocks. Refugees and humanitarian immigrants must 
reside in the U.S. for at least one year before they can be eligible to 
apply for lawful permanent residency (green card) after which they must 
wait an additional five years to be eligible to apply for 
naturalization. Within those six years, a number of obstacles may 
prolong the process. Increasing fees, backlogs, processing delays, 
background checks, fingerprinting and preparation for English language 
proficiency and U.S. history and civics are among barriers to timely 
naturalization. The median number of years between legal immigration 
and naturalization for persons who became U.S. citizens between 2002 
and 2005 has been eight years. \8\ The path to obtaining citizenship 
can take much longer for many refugees and humanitarian immigrants who 
are eligible and receive SSI.
---------------------------------------------------------------------------
    \8\ Jeanne Batalova, ``Spotlight on Naturalization Trends,'' 
Migration Policy Institute, http://www.migrationinformation.org/
USfocus/display.cfm?ID=421#14, September, 1, 2006.
---------------------------------------------------------------------------
    As one of the steps to attaining citizenship, individuals must 
demonstrate their comprehension of the English language and also pass 
an exam on U.S. history and civics. While applicants over the age of 55 
who have been in the U.S. for over 15 years and those over 50 who have 
been in the U.S. for over 20 years are eligible to take the exam in 
their native language and be exempt from the English language 
requirement, these exemptions are not helpful for disabled or elderly 
refugees. \9\ Many refugees and humanitarian immigrants have had little 
or no form of formal education which makes learning very difficult. For 
some, even the written form of their native language is foreign. In 
addition to learning disabilities, it is known that with advanced age, 
the ability to learn and retain new information becomes less likely and 
often impossible for many. Because of such barriers, simply attaining 
the English capacity to naturalize becomes a goal that is unachievable 
for a number of the most vulnerable disabled and elderly refugees.
---------------------------------------------------------------------------
    \9\ Melanie Nezer, ``America's Broken Promise: The Dire 
Consequences of Welfare Reform for Jewish Refugees,'' Summer 2006
---------------------------------------------------------------------------
    Increasing application fees also contribute to the delay in 
naturalization. The current cost of the naturalization application 
alone is $330 which is over 70% of the average SSI payments made in 
January 2007. Recently, USCIS has proposed fee increases to citizenship 
and change of status applications that would bring the cost of the 
naturalization application up to $595--well over the average SSI 
payments in made January 2007. High fees further delay and often 
prohibit those who receive and depend on modest SSI benefits from 
attaining citizenship.
    These and other barriers to citizenship not only prohibit many 
refugees and humanitarian immigrants from becoming fully integrated 
into American society and civically engaged through citizenship, but 
they also pose as threats to the loss of SSI eligibility and the risks 
of falling further into poverty.
    I urge Congress to ensure that the needs of disabled and elderly 
refugees are made a priority in the 110<SUP>th</SUP> Congress to 
prevent this vulnerable population from further hardship and setbacks. 
Congress should enact legislation to de-link SSI eligibility from U.S. 
Citizenship for refugees and humanitarian immigrants. At the very 
least, Congress should provide a stop-gap measure of extending the 
seven-year limit on SSI eligibility. Seven years is certainly not 
sufficient time for thousands who have been affected and thousands more 
who will be affected by this cut off.
    The U.S. has been a leader in providing refuge for people from 
around the world who, among many unimaginable circumstances, have faced 
persecution and dislocation because of conflict and war. Many who find 
refuge in the U.S. have been longtime allies and supporters of this 
country and as such, have risked their lives and those of their loved 
ones to be here. It is unimaginable that we would allow our disabled 
and elderly refugee and humanitarian immigrants to endure the unfair 
hardships of losing their SSI.
Examples and Stories of Refugees Affected by the Seven Year Limit:
    <bullet>  Bounta Xasiengpat, was 81 years old and was resettled in 
the U.S. as a refugee in 1996. Because of the seven year time limit on 
her SSI, her benefits were discontinued in December of 2004. SSI was 
her only source of income. She had to move in with her daughter and 
grandson. Bounta was seriously ill and required dialysis treatments 
three times a week. Since her husband's death a few years ago, she had 
been very depressed; a feeling only compounded with the loss of her SSI 
benefits. She felt hopeless and unsure of what to do next. She wanted 
to become a U.S. citizen and was participating in programming at the 
Fresno Interdenominational Refugee Ministries in Fresno, California. 
Bounta passed away early this year.
    <bullet>  An Ethiopian asylee received political asylum in the U.S. 
in 1999 based on credible fear of persecution if he returned to 
Ethiopia. When he received asylum in 1999, he was blind and completely 
insulin dependent and was qualified to receive SSI. His health 
deteriorated and he ultimately required daily home health care due to 
the life threatening nature of his illness. He lost his SSI in 2006 
because of the seven year limit and subsequently lost his Medicaid as 
well because of this. Despite his best efforts to obtain citizenship 
within seven years, his path to obtaining lawful permanent residency 
and U.S. citizenship were set back by delayed background checks and a 
national cap for asylees of 10,000 a year (the cap was lifted in 2005) 
which held up his application for an excess of four years.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. Now Mr. Krikorian, 
the executive director of the Center for Immigration Studies.

  STATEMENT OF MARK KRIKORIAN, EXECUTIVE DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. KRIKORIAN. Thank you, Chairman McDermott and Ranking 
Member Weller, for the invitation to speak. The 1996 welfare 
reform bill, as we know, barred most non-citizens from 
receiving SSI, which is the welfare program for the low-income 
poor, disabled and elderly. There was clearly a need for reform 
at that time. Nearly two-thirds of SSI recipients were in fact 
immigrants at that time. Chinese in particular were abusing the 
program by transferring all their assets to their children and 
then claiming poverty. But the point to refugee admissions is 
that it is a form of charity. We admit people as refugees not 
because they have family Members or because they have job 
skills or they have someone to sponsor them but for other 
reasons and that is why Congress rightly I think extended the 
eligibility for SSI for refugees for 5 years and then to seven, 
again in effect as a form of charity to permit people time to 
naturalize.
    In the 10 years since then, the SSI usage rate is roughly 
the same between immigrants and natives when you look at all 
immigrants together but immigrant sending countries clearly 
have much higher rates. Russian immigrant headed families, one 
out of six are on SSI. One out of eight Iranian families are on 
SSI. Ten percent of Cubans are on SSI, more than 6 percent of 
Vietnamese are on SSI. Immigrants who seek to naturalize for 
whatever reason, either as a strategy to preserve welfare 
eligibility or genuine commitment to America, are going to find 
it to be a cumbersome and time-consuming process. There are all 
requirements that foreigners that need to demonstrate they meet 
spelled out in the law. There are certain exemptions for people 
who are elderly or have certain impairments but nonetheless it 
is a bureaucratic process that has a lot of i's to dot and t's 
to cross.
    As the number of applicants for citizenship have increased 
over the years, both because of welfare reform causing people 
to change their decisions and simply because of the ongoing 
surge in immigration, the processing time for citizenship 
ballooned and you made a reference to that. In some cities up 
to 2 years, it took up 2 years between filing and being sworn 
in. Often this happened because the fingerprints provided by 
immigrants, which were necessary for the Federal Bureau of 
Investigation (FBI) background check, expired. In other words, 
they were only considered valid for a certain period of time. 
The FBI never got around to it before that time period expired 
and the immigrants had to go in all over again and provide new 
sets of fingerprints.
    This administration has not had a stellar record on 
immigration from anybody's perspective I think but they have in 
fact managed to reduce the processing time for citizenship 
applications. This backlog issue really is not the issue it was 
in the past few years. In September, U.S. Citizenship and 
Immigration Services (CIS), I represent the older CIS, but 
nonetheless they announced in September that they had 
eliminated the naturalization backlog. This is what the press 
release said. I think it was sort of an imaginative definition 
of eliminated, nonetheless the times have been brought down 
significantly. The CIS site you can actually check online what 
the processing date is for naturalization applications, and 
they are reporting that in all the major cities, they are now 
processing applications that were submitted about 7 months ago. 
That is beyond--that is longer than their 6 month target, which 
is pretty long as it is, but clearly it is not--the backlogs 
are no longer really an obstacle to naturalization.
    It seems to me legitimate to considerately certain targeted 
limited exemptions, perhaps in fact those who have a 
naturalization application in the pipeline to provide an 
extension for them in case backlogs do in fact balloon in the 
future. The broader suggestions though that some other 
witnesses have made about de-linking welfare SSI eligibility 
from citizenship may be sensible but they are not an 
adjustment. That is a fundamental change to the way Congress 
has decided to do welfare for immigrants and is not something 
that we limited to SSI because you are going to have similar 
stories of difficulties in learning English and what have you 
coming from non-refugee immigrants as well. So, if we are 
talking about limited adjustments, the de-linking that has been 
suggested is really not appropriate. That is a fundamental 
change, a sort of paradigm shift to the way Congress does 
immigration and welfare.
    But there is a broader issue I just wanted to touch on at 
the end and that is that whatever Congress does decide to do in 
this question of SSI eligibility, we need to understand that 
immigration is very costly to the taxpayers and that refugee 
admissions are the most costly form. It is a kind of taxpayer-
supported charity. We need prioritize, it seems to me, whom we 
provide this kind of charity to. If we decide that in a 
situation of limited government revenues we are going to extend 
this form of charity to refugees, whom we admit for 
humanitarian reasons, and rightly so, whether it is sensible to 
continue these kind of levels of mass immigration of non-
refugee, non-humanitarian flows of people.
    I would be happy to answer any questions afterward. Thank 
you.
    [The prepared statement of Mr. Krikorian follows:]
       Prepared Statement of Mark Krikorian, Executive Director,
                     Center for Immigration Studies
    Thank you Chairman McDermott and ranking member Weller for the 
opportunity to speak before this Subcommittee.
    In 1996, Congress passed the Personal Responsibility and Work 
Opportunity Reconciliation Act which, among other things, barred most 
non-citizens from receiving Supplemental Security Income (SSI), a 
welfare program for low-income people who are disabled, blind or aged 
65 or older. \1\ There was clearly a need for reform of SSI 
eligibility; immigrants made up nearly two-thirds of elderly SSI 
recipients, with elderly Chinese, in particular, often using the 
program after giving their assets to their children and then claiming 
poverty. \2\
---------------------------------------------------------------------------
    \1\ Supplemental Security Income Home Page, http://www.ssa.gov/
notices/supplemental-security-income/index.htm.
    \2\ See, for instance, ``From `Jiu Ji Jin' to `Fu Li Jin': Some 
Chinese Immigrants Mistakenly See Welfare as a `Fringe Benefit','' by 
Norman Matloff, The New Democrat, November 1994, http://
heather.cs.ucdavis.edu/pub/Immigration/WelfareUse/NewDemo.html.
---------------------------------------------------------------------------
    Refugees are humanitarian immigrants admitted without being 
sponsored by a family member or employer (who would be responsible for 
ensuring they did not become a burden to the taxpayer), and were 
therefore permitted to retain their SSI eligibility for five years 
after arrival, later extended to seven years. The goal of these time 
limits was to allow refugees time to naturalize, and thus remain 
eligible for benefits on the same basis as any other American citizen.
    And there was, in fact, a significant uptick in naturalization in 
response to welfare reform. In the words of one scholar, ``There is 
strong evidence that immigrants sought citizenship as a means of 
retaining welfare eligibility. Those immigrant groups with the heaviest 
welfare use rates saw the largest increases in naturalization after 
welfare reform, further neutralizing its potential impact.'' \3\
---------------------------------------------------------------------------
    \3\ ``The Impact of Welfare Reform on Immigrant Welfare Use,'' by 
George J. Borjas, Center for Immigration Studies Report, March 2002, 
http://www.cis.org/articles/2002/borjas.htm.
---------------------------------------------------------------------------
    Heavy refugee use of SSI continues. SSI usage overall is similar 
between native and immigrant-headed households: in 2005, about 4 
percent of native-headed households received welfare benefits through 
SSI, compared to 4.4 percent of immigrant-headed households (which, 
because of welfare reform, are almost certainly disproportionately 
refugees). \4\ This is buttressed by the data by country of origin; 
though the government surveys used to measure such things do not record 
the specific immigration status (and so cannot focus specifically on 
refugees), certain countries are more likely to send refugees than 
others, and people from those countries have high rates of SSI use. For 
instance, 15.4 percent of households headed by someone born in Russia, 
long a major source of refugees, collected SSI in 2005, the highest 
rate among the top-25 immigrant-sending countries. The same is true for 
other refugee-sending countries; 12.4 percent of Iranian-born 
households collect SSI, as to 9.9 percent of Cuban households, and 6.3 
percent of Vietnamese households.
---------------------------------------------------------------------------
    \4\ ``Immigrants at Mid-Decade: A Snapshot of America's Foreign-
Born Population in 2005,'' by Steven A. Camarota, Center for 
Immigration Studies Backgrounder, December 2005, http://www.cis.org/
articles/2005/back1405.html.
---------------------------------------------------------------------------
    The proportion of new refugees who might be eligible for SSI--i.e., 
those who are elderly or disabled--cannot be determined exactly, but 
the Office of Immigration Statistics reports that the proportion of 
people over 55 years old among newly admitted refugees was 12.9 percent 
in 2003, 9.2 percent in 2004, and 8.7 percent in 2005. \5\
---------------------------------------------------------------------------
    \5\ ``Refugees and Asylees: 2005,'' by Kelly Jefferys, Department 
of Homeland Security Office of Immigration Statistics, May 2006, http:/
/www.dhs.gov/xlibrary/assets/statistics/publications/
Refugee_Asylee_5.pdf.
---------------------------------------------------------------------------
    Immigrants who seek to naturalize--whether as part of a strategy to 
preserve their SSI welfare eligibility or out of genuine commitment to 
America--may find it to be a cumbersome and time-consuming process. Of 
course, much of the time and effort is justified and cannot be avoided; 
after all, the law rightly requires foreigners to meet a variety of 
benchmarks before being considered for admission to the American people 
through naturalization, including a period of continuous residence in 
the United States, the ability to read, write, and speak our national 
language, a knowledge and understanding of America's history and 
government, good moral character, and attachment to the principles of 
our Constitution. \6\ Foreigners who are otherwise eligible but who are 
elderly or have certain physical or mental impairments may be exempted 
from the language and history/government requirements.
---------------------------------------------------------------------------
    \6\ See the U.S. Citizenship and Immigration Services (USCIS) page 
on naturalization, http://www.uscis.gov/naturalization.
---------------------------------------------------------------------------
    In practical terms, this means filling out more forms, providing 
fingerprints for security and criminal background checks, being 
interviewed by an adjudicator, and eventually attending a swearing-in 
ceremony, where the candidate for citizenship declares that he will 
``absolutely and entirely renounce and abjure all allegiance and 
fidelity to any foreign prince, potentate, state, or sovereignty of 
whom or which I have heretofore been a subject or citizen.''
    As the number of applicants for citizenship increased (because of 
welfare reform and because of the ongoing surge in immigration), the 
processing time for citizenship ballooned, in some cities taking two 
years from initial filing of paperwork to taking the oath of 
allegiance; the waits were sometimes so long that the fingerprints 
provided for FBI background checks would expire and have to be 
resubmitted.
    Although this administration has not had a stellar record on 
immigration, it has managed to reduce the processing time for 
citizenship applications; in September 2006, U.S. Citizenship and 
Immigration Services (USCIS) declared the ``elimination'' of the 
naturalization backlog. \7\ Though one senses a ``mission 
accomplished'' approach to this issue by USCIS, the wait times and 
backlogs have indeed come down; the USCIS site shows that 
naturalization applications are taking about seven months to be 
processed in most cities, including Seattle, Chicago, San Francisco, 
Los Angeles, and New York. \8\ This is longer than the six-month target 
the agency has set for itself (which is itself a pretty long time), but 
is nowhere near the two years that some cities had been seeing.
---------------------------------------------------------------------------
    \7\ http://www.uscis.gov/files/pressrelease/N400Bklg091506NR.pdf
    \8\ Check processing times here: https://egov.immigration.gov/cris/
jsps/ptimes.jsp.
---------------------------------------------------------------------------
    The question for this panel would seem to be whether it is 
necessary to extend the SSI eligibility period so as to prevent elderly 
and disabled refugees from losing access to SSI welfare benefits. Given 
the reduction in processing times, combined with the exemptions from 
certain requirements, there would not appear to be any justification 
for extending the SSI eligibility period for refugees beyond the 
current seven years; any elderly or disabled refugee who seeks 
citizenship, and is not disqualified due to criminal or security 
concerns, should be able to successfully meet the requirements for 
citizenship within the seven-year period. In fact, further extending 
the eligibility period would seem to be a disincentive to refugees to 
seek citizenship; at the most, it might be justified to extend the 
eligibility period only for those who have already applied for 
naturalization, in case in the future, backlogs and waiting times start 
to increase again.
    One final thought on this topic. Whatever Congress decides to do on 
this specific issue of SSI eligibility for refugees, lawmakers need to 
keep in mind that our immigration policy is very costly to taxpayers, 
and the admission of refugees is inevitably the most expensive 
proposition of all. This is because refugees are admitted precisely 
because of their desperate circumstances, often having lost all their 
possessions or been severely traumatized, and perhaps even hailing from 
profoundly backward societies with no familiarity whatsoever with 
modern life. And we may well see a surge of refugee admissions over the 
next several years, with the potential resettlement in the United 
States of hundreds of thousands of Iraqis. \9\
---------------------------------------------------------------------------
    \9\ See a January 16, 2007, Senate Judiciary Committee hearing on 
this topic, http://judiciary .senate.gov/hearing.cfm?id=2470.
---------------------------------------------------------------------------
    In the context of limited government resources, and given the fact 
that a refugee is dramatically most costly to taxpayers than any other 
kind of immigrant, policymakers must consider whether the costs of 
admitting additional refugees should be balanced by a reduction in the 
admission of other immigrants. To govern is to choose, and if we choose 
to permit humanitarian immigration (as I would argue we must, though 
not necessarily as it is arranged today), then we must face up to the 
costs and order the rest of our immigration system accordingly.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you. Can the fees be waived?
    Ms. HILL. In theory, yes.
    Chairman MCDERMOTT. In theory. If they have somebody who 
comes in on SSI and they demand a month's subsistence the 
Immigration Service requires them to pay?
    Ms. HILL. Right, but when I say in theory because there are 
waivers available in the current process, but when we really 
look to the actual application of the waiver processes that are 
available to the immigration official, they are not being used. 
So when we talk about waivers as a process being available, the 
answer is yes. Is it being utilized in individual cases, the 
answer is no.
    Chairman MCDERMOTT. We will not speculate about why.
    Ms. HILL. I am not in a position to.
    Chairman MCDERMOTT. Let me go to one other question, both 
of you are dealing with immigrants on a regular basis. What is 
the fastest that somebody like Mr. K ' Keng could get through 
the process?
    Ms. THOR. I think this was mentioned earlier in terms of 
the inconsistency across the board. There are areas where you 
can get it much sooner and areas where it is much more 
difficult. But, for example, according to the ombudsman report 
to CIS, applications in New York have taken 90 days, for 
example, for green cards but applications in Greensboro, South 
Carolina have taken 500 days. So, I feel as though there is a 
broad spectrum. In our work with community-based organizations, 
many who do deal on the direct service with refugees and 
immigrants, on average in their discussions with us have been 
around anywhere from 6 months to a year if they have a really 
good advocate who also understands the system and if that CIS 
has strong relationships with the community, understands the 
history and those components. If not, there are multiple delays 
that could take years. It is just very inconsistent across the 
board, and I think our philosophy is that because it is so 
inconsistent, it should not be on behalf of the burden of the 
refugees to bear that piece.
    Chairman MCDERMOTT. Your experience, Ms. Hill?
    Ms. HILL. Similar experience, we are one of the largest 
resettlement organizations in the country and so it is spotty 
across the country. We have refugee programs in almost every 
jurisdiction and there is no cookie cutter process, which I 
could say to you is working one way or the other, and I think 
it is great that they report it is 90 days in New York, I think 
our agencies would probably beg to differ with that.
    Chairman MCDERMOTT. Mr. Krikorian suggests that maybe 
extending the eligibility would serve as kind of disincentive 
to immigrants trying to get in or asylees trying to get in, do 
you agree with that? Is that what you are finding with people 
that the only thing that is driving them is the fact that they 
are about to go off of SSI?
    Ms. THOR. I do not think so. You can ask Mr. Krikorian 
himself actually but even though he has not--he is not on SSI, 
he is still English as a Second Language (ESL) class that is 
trying to get his citizenship. I know for many they think it is 
about just getting the citizenship piece and that is the carrot 
for them. But on behalf of many Southeast Asian refugees, many 
who fought on behalf of the United States, I think for them 
being able to say the oath as a part of their commitment to 
this country and kind of finalize that step all the way from 
beginning to the end in terms of being recruited to support the 
U.S.
    Chairman MCDERMOTT. There is no way for him to get his 
citizenship without speaking English and passing the civics 
test in English?
    Ms. THOR. He can apply for the English language waiver but 
he has a specific time limit and some boundaries of which he 
has not met yet, for example he has not been in this country 
long enough for that specific waiver. In addition, when he is 
interviewed in the process--even if he were eligible for the 
waiver, it is difficult in the sense that the person 
interviewing him could ask any series of questions which may or 
may not--which he may or may not have the ability to answer 
based upon--even if he studied as hard as he could.
    Chairman MCDERMOTT. Let me ask you, Mr. K ' Keng, through 
your interpreter. You came to the country and went to work. 
What kind of work were you doing and what was the reason that 
you were unable to work further and therefore had to apply for 
SSI as a way of subsisting?
    [Speaking through interpreter.]
    Mr. K ' KENG. He worked at a bakery, planting flowers and 
stuff and because of his disability, you can see that his left 
eye--I mean his right eye has problems. Of course, there is a 
blueprint label that you have to follow or to read and of 
course there does not know English and he is not able to follow 
it and also his age. That is a problem that he is laid off.
    Chairman MCDERMOTT. Where is he taking his English only 
classes or is learning his English language?
    Mr. K ' KENG. Well, actually in North Carolina, the church 
is also opening classes, which is a Montagnard hiring Americans 
who are qualified to teach ESL language. So, yes, this American 
is helping--they are really good help. They are helping the 
Montagnard. When you are thinking about it, when you are old, 
it is really, really hard to keep all of that learning into 
your head.
    Chairman MCDERMOTT. Do not ask me to learn another 
language. Mr. Weller can inquire.
    Mr. WELLER. Thank you, Mr. Chairman, and first this is a 
very useful hearing. As one of those who notes that as we have 
had the debate over the issue of immigration in the last few 
years, that often those who are left out of this debate are 
those who are here following the rules. Of course, the people 
we are discussing today are those who are following the rules. 
So, I appreciate this hearing and, Mr. K ' Keng, we want to 
honor you and your colleagues who stood with America during the 
conflict, and we thank you for being here and we honor you for 
your service.
    Mr. Krikorian, in your testimony you noted that processing 
times have been reduced. However, the ombudsman for the 
Citizenship and Immigration Services Office at the Department 
of Homeland Security (DHS) in the annual report for this past 
year said one of the reasons INS or naturalization backlogs 
have fallen is because DHS had redefined some of the people 
previously counted as being in the backlog as now being out of 
the backlog. It seems kind of artificial.
    Mr. KRIKORIAN. To some degree.
    Mr. WELLER. Since the size of this backlog has taken a 
direct effect on refugees who might be applying for citizenship 
and thus able to maintain their benefits, that raises 
questions. As you mentioned in your testimony, you talk about 
reducing the processing times. Does this redefinition of the 
backlog affect the real processing time or are they just 
changing the definition so that they can say the are doing it 
quicker?
    Mr. KRIKORIAN. I think it is probably a little bit of both. 
They are defining as not in the backlog people who are--whose 
applications have been suspended for security reasons, for 
instance, and several other criteria. Some of it is 
imaginative, fancy footwork, bureaucratic footwork but the----
    Mr. WELLER. Creative accounting in order to look better?
    Mr. KRIKORIAN. Yes, exactly. But some of it clearly has 
been a reduction in the sort of very long processing times in 
some of the cities we are seeing. But I am not here to 
apologize for the administration.
    Mr. WELLER. I am not asking you to. What do you consider, 
just looking at it, you are an expert, is the real processing 
time for someone here following the rules who is refugee status 
for going through the citizenship process?
    Mr. KRIKORIAN. I could not give you an estimate precisely 
because of the things the other witnesses have said, that it 
really is different--in other words, the kinds of people that 
CIS has defined out of the backlog are not evenly spread 
everywhere and therefore they are going to be different real 
backlogs in different cities. I could not give you a real 
number.
    Mr. WELLER. Ms. Thor or Ms. Hill, what is the real 
processing time? DHS says it is 7 months today, what is the 
real processing time?
    Ms. THOR. I would like to hear from Candy too because I 
think we have tried in every way possible to get an answer on 
that and there is not a consistent answer across the board. I 
think for the communities that we work with, the fact that we 
cannot get any consistent answer is problematic and speaks to 
the fact that we do not have a consistent way to define really 
how people are decreasing these backlog cases and if they 
really are cases that should be defined and should be connected 
to this in many ways.
    Mr. WELLER. Now someone is going through the refugee 
process to become a citizen, do they follow exactly the same 
process as someone else not in the refugee status or are there 
exceptions that they are given in the process?
    Ms. THOR. From my personal opinion, and I am a person 
actually who was not a citizen and then had to go through the 
process myself, I think that the CIS is overwhelmed and 
everyone that comes through the door, you become another number 
in a big line of people who have to deal with the situation, 
and they personally care that my father has fought on behalf of 
the U.S. They see me as another person that they have to 
process and get through. In fact, many interviewees that we 
have gone with to help with in terms of the process, they 
actually question that process and they say, ``Well, why should 
you get it because you are refugee?`` In many ways I think they 
see that the extra burden should be on top of some of these.
    Mr. WELLER. Mr. Krikorian, are there any exceptions or do 
they follow exactly the same process?
    Mr. KRIKORIAN. As far as I know, the same rules. The 
bureaucratic laws and the law is the same for those because 
what happens is a refugee or a political asylum recipient, 
after one year of getting that status can convert to being a 
regular immigrant, a lawful permanent resident, at which point 
five more years, then they are really just another immigrant. 
They are converted to an immigrant after a year so legally it 
is the same thing.
    Mr. WELLER. Then do we provide any special assistance, is 
there any particular program designed to directly assist 
refugees move through the----
    Mr. KRIKORIAN. Not a government program, no, there may be 
private ones.
    Mr. WELLER. Groups like yours, Ms. Hill?
    Ms. HILL. Well, certainly the United States Catholic 
Conference of Bishops is one of the largest refugee 
resettlement organizations and so there is money available on 
the front end, when we are bringing people into the country, 
but sustaining people over time in that process, the answer is 
no other than the individual benefits that they might be 
eligible for under SSI.
    To your point about the backlog, if I might just read a 
quote, this is why in the ombudsman report it says, ``The 
ombudsman shares the IG's concern that these definitional 
changes in how we are counting the backlog, i.e., hide the true 
problem and the need for change.'' To permit accurate 
assessment of backlog and elimination progress, CIS should 
provide along side its backlog numbers its redefined the 
numbers, the real total numbers without such recalculation. 
Only then I think could you get a true picture of where 
actually we stand on this issue.
    Mr. WELLER. Thank you. I realize my time has expired. Mr. 
Chairman, thank you.
    Mr. MCDERMOTT. Mr. Stark will inquire.
    Mr. STARK. Mr. Krikorian, you were quoted in my hometown 
newspaper a few years back, I will refresh your memory. ``When 
we admit people lawfully, the idea of applying different 
welfare rules to them just does not make sense to me. We let in 
elderly people who are refugees, then you have got to expect 
they are going to have a hard time fitting into their new 
society.'' I presume that means that some years ago you thought 
it was unfair to cut off the benefits. Today, you seem to be 
suggesting a different approach. I am wondering why the change 
of heart? I may have to leave in a couple of minutes, I had one 
other question for you probably Ms. Hill. Because our district 
office, which is right next to San Jose, we must see 150 
immigration cases a month come through, all kinds of reasons 
and concerns, whether it is citizenship or bringing relatives 
in or green cards. So, we have a fairly active staff who work 
with the various bureaucracies to help them. I cannot help but 
think that there has been a--that the recent terrorist 
paranoia, whether real or presumed, has caused us to just be 
running through a lot of extra bureaucratic mumbo-jumbo in 
terms of taking more time with the FBI finding background 
checks. I have a hunch that is applied less to immigrants from 
Europe than it is perhaps from Asia and the Pacific Island 
nations. I wonder if any of you have observed that. I am not 
sure it is bad or good, maybe there is a real threat to 
terrorism in that regard but my own feeling it is probably not, 
but we have all been on heightened alert. But what about your 
change, is there--have you changed your opinion since 2004?
    Mr. KRIKORIAN. No, not really.
    Mr. STARK. Okay.
    Mr. KRIKORIAN. Because that is why we have special 
exemptions already, in other words, refugees are already 
eligible for SSI for 7 years in a way that other immigrants are 
not. We have exemptions for the elderly who have been here for 
a long time. Maybe adjusting those specific exemptions would 
make sense but a broader change is not the de-linking 
altogether, is a paradigm shift to the way we do immigration 
and welfare. That is something that seems to me is different 
from what we are talking about here. If I could talk about the 
security concerns.
    Mr. STARK. But just before you get there, I would suspect 
that the other witnesses would agree with me, but for cost, and 
that is but for the cost, and that is not an insignificant part 
of this, I would have trouble deciding why we should allow 
people who have been here 5 years, obeyed the law and paid 
their taxes, they qualify for social security, they qualify for 
Medicare, how it is that we do not let them qualify for SSI 
other than cost? There is not a good reason, is there?
    Mr. KRIKORIAN. No, because the point is that SSI is for 
people who do not qualify for Social Security. In other words, 
it is run through the Social Security Administration for people 
who do not have a sufficient number of quarters of work. See 
that is why it is much more----
    Mr. STARK. Yes, I understand that but still it is a 
socially motivated attempt to help people who are legally here 
and who for whatever reason--are not breaking the law and if it 
is necessary, paying taxes, and otherwise obeying the system, 
and I just wonder if there is any other reason besides cost 
that we should not just make them eligible?
    Mr. KRIKORIAN. Well, because the principle I think, and I 
do not want to speak for the Members because you all voted on 
this, but the principle to limits on welfare for non-citizens 
is that they are not yet Members of the community. They are 
guests that we have admitted and when they buy in, then they 
become us, at which point they become eligible on the same 
standards as everyone else. Now if that is a theory that 
Congress decides they want to change----
    Mr. STARK. Yes, but we do not apply that when we have a 
military draft, if you are here and not a citizen but you are 
here illegally, you can be drafted.
    Mr. KRIKORIAN. If you are here illegally you can be 
drafted.
    Mr. STARK. Okay, then why shouldn't we? As I said, I 
cannot----
    Mr. KRIKORIAN. You need to ask President Clinton and the 
1996 Congress that passed and signed the bill, that is my 
point.
    Mr. STARK. I did. I just have trouble. But go back and help 
me on the--yes, please?
    Ms. HILL. Mr. Stark, I think you make a great point about 
the time limits in your question and about 9/11. I think that 
in 1996, Congress could not have predicted what was going to 
happen obviously with 9/11 and so looking backward now, 7 years 
might have seemed very reasonable to Congress to have people 
naturalized in this country, but I think we have to admit that 
things came to a screeching halt with 9/11, and I think that is 
exactly why you have to take a second look at this.
    Mr. STARK. Or the system got bogged down.
    Ms. HILL. Yes, and I think that is exactly why you have to 
take a second look at the decision that was made in 1996, we 
could not have known that 9/11 was coming and it may have been 
a reasonable decision back in 1996 but it is not a practical 
decision today.
    Mr. STARK. Now that poor guy in Guantanamo has confessed to 
every terrorist crime that has ever happened in the world, we 
do not have to worry about any more, we nailed him for every 
terrorist act that has ever happened.
    Chairman MCDERMOTT. I think we will take another turn 
around here because I have got some more questions, and we do 
not have very many Members here. So, I would like to ask you I 
am trying to understand the timeline that Mr. K ' Keng or 
someone like him goes through. He comes into the country and 
then he has to wait 6 years for his eligibility. He goes first 
to step of becoming a legal resident.
    Mr. KRIKORIAN. Right, so that is 1 year.
    Chairman MCDERMOTT. One year, so he has to wait 1 year. 
Then after that, he has to wait----
    Mr. KRIKORIAN. Five more years.
    Chairman MCDERMOTT. Five more years.
    Mr. KRIKORIAN. Right.
    Chairman MCDERMOTT. So, for six years--so now he has got 
all this time and he is getting himself ready, and he has got 
all his documents and everything, and he plops it down on the 
table at the end of the sixth year here, now he has 1 year, and 
I was trying to think--somebody has got to check the stuff he 
has handed in, right? They have to check and find out if he 
really was born there and where his Army records are and all 
this stuff and that is going to happen in 90 days in New York? 
Does anybody think that is a reasonable number?
    Mr. KRIKORIAN. They are saying 7 months now not 90 days.
    Chairman MCDERMOTT. Oh, I thought somebody said----
    Mr. KRIKORIAN. They are reporting from New York it is 7 
months.
    Chairman MCDERMOTT. Seven months?
    Mr. KRIKORIAN. Yes.
    Chairman MCDERMOTT. So, is that a reasonable length, Ms. 
Hill?
    Ms. HILL. Well, I think one of the things I wold say to you 
is that he could have everything, including passing his civics 
test and learning English, and get to the point where he is 
ready for the last step, which is the FBI clearance, right 
before being given the oath, and what we know about that 
process is it is a one to 2 year process before you can 
actually be sworn in as a citizen. So, when you talk about 1 
year and 5 years, that 6 years, then he is going to get ready 
to be a citizen by taking civics class and he is learning 
English, he can do all of that and he can get to the door of 
the FBI clearance. If you read the material about how they do 
the clearances, if there is an ``i'' not dotted or a letter off 
or whatever, that process can cause him to have to go back 
through it a number of times and that could take one to 2 years 
before he has done everything right, he has done it in the 
right process, and yet he is still not sworn in as a citizen.
    Chairman MCDERMOTT. I have trouble also when I am listening 
to this, I watch CSI on television and they have these data 
banks of fingerprints, and they put a fingerprint on there and 
it flips around and suddenly we know who it is. How does a 
fingerprint wear out and have to be re-done by an immigrant? 
What is the explanation for what that is all about, does 
anybody know?
    Mr. KRIKORIAN. Well, it does not wear out, there are 
administrative guidelines for how long--in other words, the 
maximum amount of time.
    Chairman MCDERMOTT. Fingerprints do not change.
    Mr. KRIKORIAN. I do not know the rationale behind that, I 
think that is a FBI benchmark. Maybe one of the other witnesses 
know, I do not know why.
    Ms. THOR. Mr. Chairman?
    Chairman MCDERMOTT. Yes.
    Ms. THOR. Actually, I am not going to respond to the 
fingerprint question because I think none of us are probably 
qualified to answer that but definitely in terms of Southeast 
Asians, for example, many people came with the same exact last 
names. So, for example, for the Hmong who supported the U.S., 
there are only 15 clans in this country and 200,000 people all 
with the same last name. So, for those and for Mr. Stark, who 
is from San Jose, the Vietnamese, what percentage of them have 
the same last name. Then for our communities on top of it, 
there are only a few additional names that--the first names are 
similar too. My name is also a male name in our community, so 
we would want the U.S. to do a thorough background check, 
correct, I think that would be our appropriate for our 
communities and for this country. We should expect that it 
would take longer because of the complexities of the 
communities that come into this country.
    Chairman MCDERMOTT. Okay. Yes?
    Mr. KRIKORIAN. There are sort of two issues it seems to me 
that we are talking about here, one is this issue, which is the 
bureaucratic kind of the plumbing issue, and that seems to me 
is something that can be dealt with by saying that those who 
have an application in the pipeline retain their eligibility. 
But the other issue is the one that Mr. K ' Keng was talking 
about, the inability to actually meet the criteria. In other 
words, there are two different issues there, the first one, the 
plumbing issue is much easier to address.
    Chairman MCDERMOTT. Somebody who is in, you could just 
extend it until they are done.
    Mr. KRIKORIAN. Conceivably, yes.
    Chairman MCDERMOTT. But then that would leave all these 
other people out who somehow get--my naturalization press 
release here says, ``Of this gross backlog of 1.1 million,'' 
140,000 cases are considered backlogged in the Immigration 
Service so they have knocked 900,000 people out without--I do 
not know quite how they did that.
    Mr. KRIKORIAN. No, but my suggestion is that is still a 
kind of an administrative plumbing issue, in other words, if it 
is the FBI that is the problem, their applications are still 
live and in CIS' hands. The other question is elderly people 
who cannot or who claim they cannot learn English, that seems 
to me is a different obstacle than the administrative obstacle.
    Chairman MCDERMOTT. Mr. Weller, you want to ask?
    Mr. WELLER. Sure. Thank you, Mr. Chairman, and again this 
is a useful hearing, and I appreciate the time we are investing 
here today. It is my understanding there are about 30 states 
that provide additional benefits beyond SSI which refugees can 
benefit from. My state of Illinois is one of them. I was 
wondering, Ms. Hill, can you highlight on that and tell what is 
available in addition to the SSI and are there time limitations 
on this available at the state programs in Illinois, for 
example, my home state or Washington state, which is one of 
them?
    Ms. HILL. Well, let me start with the last part of the 
question to say I would be happy to look into the time limits 
in each of those individual states, and I cannot answer--I am 
not prepared to answer that question. I am from Michigan so I 
can talk a little bit about Michigan as well. I think that the 
states have recognized, even with SSI benefits when you look at 
$623 that is the maximum an individual can receive and you 
think about that here in this jurisdiction of Virginia, 
Baltimore and D.C. and the cost of living here, there are 
individual jurisdictions like yours in Illinois that have 
realized that people cannot even meet their most basic needs, 
that they are living way below the poverty level. Certainly at 
our agency, even when they are receiving SSI benefits, they are 
many times coming to us for assistance for food, to pay their 
rent. It is a very low existence for them but it does provide 
them some dignity and opportunity to pay but I think the states 
have realized that it is not enough. Certainly now if it is 
tied to, if your benefit in Illinois is tied to the receipt of 
SSI at the Federal level, when they lose their eligibility at 
the Federal level, I would presume they are going to lose the 
eligibility in the state.
    Mr. WELLER. Ms. Thor?
    Ms. THOR. I think from our experience with our community-
based Members we do feel like people on the state level realize 
that this is a very vulnerable population that needs that kind 
of support and in actuality the states actually support it very 
minimally and often is the first program that they look to cut 
in terms of looking at programs when they are looking--the 
states also feel overburdened in terms of trying to think 
through how to be supportive and so I think that for 
California, for example, it has definitely been our population 
that has been at risk of losing this support. Many of them 
already, like you said, do not have the Federal support and so 
they are really struggling maybe with just food stamps and 
those components.
    Mr. WELLER. Mr. Krikorian?
    Mr. KRIKORIAN. The answer is I do not know. I am not 
familiar with the states specifically.
    Mr. WELLER. Okay. I guess the question is before this 
Subcommittee of whether or not we extend a longer period of 
time, and I would just like to hear from each of you. Mr. 
Krikorian, in your testimony you felt there is no need for an 
extension, that is consistent with our view for a longer period 
of time?
    Mr. KRIKORIAN. Yes, I think that at the most those who have 
submitted applications, have already begun the process, if it 
is because of the FBI or CIS' problems, that it is appropriate 
they continue to be eligible. But the point to the time period 
of extended eligibility, in other words, they already--refugees 
already have 7 years longer than other immigrants to be 
eligible for SSI. No, I think it is hard to justify it. If we 
do, it seems to me to be part of a broader reassessment of 
whether all immigrants should be made more eligible.
    Mr. WELLER. So, as I understand it, if they are in the 
midst of their process and the process has not been completed, 
you would support an extension of SSI for those individuals 
that are----
    Mr. KRIKORIAN. That have undertaken the process----
    Mr. WELLER [continuing]. That have undertaken the process.
    Mr. KRIKORIAN [continuing]. Of applying for citizenship, 
yes, I think that would make sense.
    Mr. KRIKORIAN. Ms. Thor, do you agree with that position?
    Ms. THOR. I actually agree that we need a longer fix and a 
much broader fix for this. Hence, I think both Ms. Hill and I 
did recommend de-linking in the sense that this country has a 
commitment to the people that we bring in legally and refugees 
who supported us as allies. I do not think it is a shift in our 
philosophy to support those who supported us abroad as well as 
those who have come into this country that we have brought in 
legally. I feel like there is this idea that when people think 
of us doing a charitable act, that there is no support from the 
other side and actually those communities have not given 
anything in return.
    Mr. WELLER. So, if they are not applying to be a U.S. 
citizen, if they are not pursuing U.S. citizenship, you believe 
they should continue to get these SSI benefits for a longer 
period of time, that is your position?
    Ms. THOR. We support an extension as well as a longer fix, 
especially for those like Mr. K ' Keng who may not be able to 
pass his exam but are here legally because of his support of 
the U.S.
    Mr. WELLER. Ms. Hill, are you consistent with Ms. Thor?
    Ms. HILL. Yes, and I would add a couple of other things. I 
think we need to be careful about mixing the term ``refugee'' 
and ``immigrant.'' Refugees are here under a completely 
different status, and I would echo they were invited in by this 
country and they came because of persecution, many times for 
helping our troops abroad, and I think that CIS has looked at 
this as a special classification, and we need to not mix the 
two. So, I think that is an apples and oranges conversation. 
Immigrants come a different way into this country so I would 
caution the Committee not to mix the two.
    I would also say to you that in the refugee population that 
we deal with, again people do not realize the atrocities these 
people have experienced, and I do not think it is a reluctance 
to becoming a U.S. citizen, they are under extreme pressure to 
become a citizen. So before coming here today, I talked with 
some of our folks who work at clinics and they told me a story 
about a woman who is reaching the end of her SSI benefits and 
she is 75 years old. She was coming to see one of her workers 
at Catholic Charities and she suffered a stroke in the parking 
lot, and she is very near the end and they are under a lot of 
stress to become a citizen. I think that is why I would say de-
linking it.
    Mr. WELLER. May I ask why would they not want to become a 
citizen?
    Ms. HILL. I do not think that we have evidence that they do 
not want to become a citizen. I think the idea is just de-
linking--in order to get food, water and shelter after seven 
years in this country, turning this around, you have to become 
a citizen. So I think that is the wrong approach. I do not 
think we have ever been asked are these people willing to 
become citizens. Anybody that would lay down their life 
alongside of our troops in their own country and be persecuted 
by their own government, I do not know how as a country we can 
question their allegiance to this country.
    Mr. WELLER. Ms. Thor, why would someone not want to become 
a citizen if they are here as a refugee?
    Ms. THOR. I have personally not met anyone who would not 
want to become a citizen. I actually feel very strongly that 
de-linking would give people the opportunity to really learn 
English well and really be able to engage in the way that they 
want to and really embrace the fact that becoming a citizen is 
about more than just passing a civics exam.
    Mr. WELLER. Mr. K ' Keng, the people of his community that 
are here under refugee status, do they all wish to become U.S. 
citizens?
    Mr. K ' KENG. [Through interpreter] Yes, everybody is 
anxious to become a U.S. citizen within their seven month--or 7 
years in the United States.
    Mr. WELLER. Are there any in the community who would choose 
not to or feel they should not--that they would not want to 
become a U.S. citizen?
    Mr. K ' KENG. No, no.
    Mr. WELLER. Thank you. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you. Mr. Meek has something to 
enter into the record, and I would like to enter something as 
well. I ask unanimous consent to enter into the record an 
article that was in the Seattle Times today called, ``Citizen 
Application Backlog Holds Up Disability Benefits,'' and it 
talks about these issues. I think that this is an issue we will 
come back to and see if we cannot find a way. I could not help 
thinking as I was walking down the hallway coming here the 
Chinese aphorism that says, ``Beware of saving a man's life 
because you are responsible for him forever.'' When we take 
people in, I think we have accepted that responsibility and I 
think that we in this Committee will try and deal with that.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. WELLER. Mr. Chairman?
    Chairman MCDERMOTT. Yes?
    Mr. WELLER. I would like to ask unanimous consent to 
include pages eight and nine of the ombudsman for the 
Citizenship and Immigration Services, their annual report as 
part of the record as well with my comments.
    Chairman MCDERMOTT. Without objection.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. WELLER. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you very much. Thank you all for 
coming and testifying. It helps us to actually see real people 
like Mr. K ' Keng and people who are working on the firing line 
trying to deal with all the problems. Thank you.
    [Whereupon, at 1:35 p.m., the hearing was adjourned.]
    [Questions submitted by the Members to the Witnesses 
follow:]
              Questions submitted by Mr. Meek to Ms. Hill
    Question: Do you believe that the current conditioning on 
eligibility for SSI acts--in a sense--as an incentive for asylees to 
leave the safety of the U.S. and return to their home countries--even 
though they potentially face imminent persecution?

    Answer: [Response pending.]

    Question: To allow such asylees to stay in the U.S. but deny them 
assistance when they are too infirm or disabled to work--what message 
does this send to other potential asylees?
    And on a greater scale, at a time when the United States' human 
rights reputation is at issue around the globe, what message does this 
send to the international community?

    Answer: [Response pending.]

    Question: Is it a fair assertion that not all asylees wish to 
become U.S. citizens but come here out of need?
    That being said, in your opinion, doesn't linking SSI eligibility 
for asylees to U.S. citizenship create the wrong incentive to become a 
U.S. Citizen--economic hardship versus citizenship?
    Would not encouraging citizenship from individual desire and not 
the threat of privation be in the best interest of the United States 
and our melting pot culture?

    Answer: [Response pending.]

                                 <F-dash>

[Submissions for the Record follow:]
               Statement of Hebrew Immigrant Aid Society
    Through its mission of rescue, reunion, and resettlement, HIAS has 
provided lifesaving services to world Jewry for more than 125 years. As 
an expression of Jewish tradition and values, HIAS also responds to the 
needs of other migrants who are threatened and oppressed.
    Since its founding in 1881 by Jewish immigrants who found sanctuary 
in the United States after fleeing persecution in Europe, HIAS has 
assisted more than four and a half million people in their quest for 
freedom, helping them start new lives in the United States, Israel, 
Canada, Latin America, Australia, New Zealand and other countries 
around the world. As the oldest international migration and refugee 
resettlement agency in the United States, HIAS has played a key role in 
the rescue and relocation of Jewish survivors of the Holocaust, Jews 
from Arab and communist countries, more than 380,000 Jewish refugees 
from Iran and the former Soviet Union, and refugees of all faiths 
fleeing persecution in Vietnam, Bosnia, Kosovo, Sudan, and other 
dangerous places. HIAS works with an extensive network of local Jewish 
agencies across the country to resettle refugees from the Former Soviet 
Union, Iran, and other areas of conflict around the world.
    Jews from the former Soviet Union are more affected by the limits 
on SSI than any other previous refugee group because the large wave of 
Russian Jewish emigration to the U.S. in the 1990s was demographically 
the oldest in U.S. history. This wave of Russian Jewish emigration 
happened to coincide with the 1996 adoption in the welfare reform law 
that conditioned the receipt of Supplemental Security Income (``SSI'') 
benefits for the disabled, blind and elderly on achieving citizenship 
within the first seven years of entry into the country after August 22, 
1996.
    In response to this growing crisis, over the past decade HIAS has 
advocated that Congress repeal the seven year time-limit entirely, 
thereby de-linking naturalization from SSI eligibility for humanitarian 
immigrants. Basing eligibility for assistance on citizenship debases 
citizenship and puts many elderly and disabled refugees in financial 
dire straits, leaving them with no safety net. We encourage immigrants 
to become citizens in order to participate fully in the civic life of 
the country, not because the alternative is the serious economic 
hardship that may result if benefits are lost or unavailable. The 
United States admits refugees with the promise of security and 
protection against the dangerous situations they encounter in their 
home countries. Yet for many elderly refugees, we are breaking that 
promise after seven years simply because they cannot learn English or 
get through the citizenship process quickly enough. Without SSI and 
facing extreme destitution, refugees are even less likely to make it 
through the naturalization process given their overriding concerns of 
how they will afford food and housing. Only by eliminating the time 
limit will the United States fulfill its promise to this most 
vulnerable and deserving population.
SSI Benefits and Refugees
    Since 1974, the U.S. government has provided low-income elderly, 
blind, and disabled individuals with financial support through the SSI 
program. It was not until 1996, when Congress passed and President 
Clinton signed sweeping welfare and immigration legislation, that 
lawful immigration status served to restrict the access of low-income 
disabled or elderly individuals to SSI and other welfare benefits. 
Though some restorations passed in subsequent years, SSI remains the 
only federal means tested public benefit program that cuts off refugees 
after seven years unless they become citizens.
    SSI provides monthly income support to meet basic needs for food, 
clothing, and shelter to low income individuals who are 65 or over, 
disabled, or blind. In most states, beneficiaries also qualify for 
Medicaid to pay for hospital stays, doctor bills, prescription drugs, 
and other health costs. Currently, individual SSI beneficiaries receive 
monthly payments of $623 and married couples receive $934.
    In contrast to Social Security benefits, SSI eligibility is not 
based on prior work history. It is available only to those who both 
meet a poverty means test and are completely unable to work because of 
age or disability. A person is defined in Federal law as ``disabled'' 
for purposes of SSI benefits if he or she is ``unable to engage in any 
substantial gainful employment as a result of a medically determinable 
impairment which can be expected to result in death or has lasted, or 
can be expected to last, for a continuous period of at least 12 
months.''
    When Congress passed the 1996 legislation terminating access to 
public welfare benefits for non-citizens, it clearly considered that 
the United States had a continuing obligation to assist certain classes 
of non-citizens. Reflected in the 1996 welfare reform legislation is 
the idea that some non-citizens--including humanitarian immigrants who 
flee persecution and are offered sanctuary in the U.S., or who serve in 
the U.S. military, or who participate in the U.S. work force for a 
significant length of time--merit special consideration when it comes 
to public support such as through receipt of SSI benefits.
    The obligation of insuring equal treatment of non-citizen refugees 
by providing SSI income support benefits to refugees and asylees in the 
1996 welfare legislation is reflected in the international treaty the 
United States has adopted. This treaty provides under the article 
entitled ``Public relief'': ``The Contracting States shall accord to 
refugees lawfully staying in their territory the same treatment with 
respect to public relief and assistance as is accorded to their 
nationals.'' Article 23 of the 1954 United Nations Convention Relating 
to the Status of Refugees (``Convention''). Under the 1967 United 
Nations Protocol Relating to the Status of Refugees, 19 U.S.T. 6223, 
606 U.N.T.S. 267, a treaty entered into force for the United States on 
November 1, 1968 (see Treaties in Force 2006, p. 507), the Parties 
undertook to apply articles 2 through 24 of the 1954 Convention.
    Refugees and other humanitarian immigrants comprise 10 percent or 
less of the annual legal immigrant admissions. Included in the groups 
of refugees and related humanitarian immigrants are Russian Jews and 
other religious minorities who fled the Former Soviet Union, Iraqi 
Kurds fleeing persecution under the Saddam Hussein regime, Cubans 
fleeing the Castro regime, Hmong immigrants from the highlands of Laos 
who served on the side of the U.S. military during the Vietnam war, 
persecuted minorities in Somalia, and persons from various regions of 
the former Yugoslavia displaced by the Balkan wars.
    Refugees and asylees arrive in the United States with considerably 
greater challenges to self-sufficiency than other classes of 
immigrants. The U.S. government grants refugees and asylees permission 
to reside in the U.S. based solely on the determination that they have 
been the victims of persecution or have a well-founded fear of 
persecution in their native countries due to their race, religion, 
nationality, political opinion, or social group.
    Many refugees arrive with no financial resources, no documentation 
of professional qualifications or past achievements, little social 
support, and physical or mental health problems--often severe--related 
to the trauma they have suffered.
    The law recognizes that refugees and asylees often arrive alone and 
have no family members in the U.S. Unlike other immigrants, while 
refugees and asylees are eligible to receive time-limited support from 
the government in partnership with refugee resettlement agencies, they 
are not required to have a permanent sponsor (such as a family member) 
who is legally obligated to assist them if they cannot provide for 
their own support.
    The Federal Government has acknowledged the unique challenges faced 
by refugees and asylees by establishing a comprehensive system of 
assistance for their initial resettlement into the United States. 
Because the goal of the refugee program is early economic self-
sufficiency, these benefits are generally available for a limited 
amount of time after the refugee's arrival, and are provided for the 
purpose of helping a refugee to become acclimated to life in the U.S.
    The Federal Government's involvement in refugee resettlement 
efforts began in the period following World War II. Over the years, 
Congress and private organizations have funded a variety of programs to 
help newly arriving refugees adjust to life in the United States. In 
1980, the Refugee Act (Refugee Act of 1980, Pub. L. No. 96-212) 
formalized the national refugee assistance system, marshalling the 
resources and expertise of public and private agencies into an ongoing 
program now commonly known as the Refugee Resettlement Program.
    The Refugee Resettlement Program demonstrates a unique and profound 
commitment to this group of non-citizens by Congress, the Federal 
Government, and private agencies and individuals. It also confirms the 
recognition by all involved that refugees--as victims of persecution 
and as people who have been forced to flee their homelands--are 
different from other immigrants.
    Many refugees are able to rebuild their lives in America with 
minimal assistance. In fact, the employment rate for refugees is only 
slightly lower than that of the U.S. population. Furthermore, refugee 
use of all types of public benefits has declined significantly. The 
percentage of refugees receiving public benefits is similar to that of 
U.S. citizens. Even receipt of SSI, which is only available to the most 
vulnerable refugees, declined from 13.4% of refugees in 1994 to 9.2% in 
1999.
    Despite the fact that most refugees will ultimately be able to 
support themselves and their families without relying on public 
assistance, refugees who are elderly or disabled (often because of the 
extreme trauma they have suffered) may never be able to provide for 
their own means of support. For these refugees, SSI is a lifeline.
Barriers to Naturalization
    Naturalization is one way that immigrants can gain full 
participation in U.S. society. For refugees and asylees particularly, 
U.S. citizenship can be a validation that they have been fully and 
completely accepted by the U.S. and can finally leave their ``home'' 
country--a place of hostility and suffering--behind.
    While naturalization is a challenging process for many immigrants, 
it can be particularly daunting for elderly and disabled refugees. 
There are two types of barriers that stand in refugees' pathway to 
citizenship: (1) the inability to pass the citizenship examination, 
often because of physical and mental disabilities, low educational 
levels, and lack of access to naturalization outreach and education 
programs; (2) lengthy processing times of both naturalization and legal 
permanent residence (the required first step towards naturalization) 
applications caused by immigration service backlogs, security reviews, 
and service errors.
    Applicants for naturalization must demonstrate that they have 
knowledge of written and spoken English and pass an exam in U.S. 
history and civics. Applicants who are over age 55 and have been in the 
U.S. for 15 years and applicants over age 50 who have been in the U.S. 
for 20 years are exempted from the English language requirement and can 
take the civics and history examination in their native language. 
However, these exemptions are not helpful for disabled or elderly 
refugees who rely on SSI benefits, as these refugees must naturalize 
within seven years of admission if they are to be continuously eligible 
for SSI.
    Disabled naturalization applicants can request a waiver of the 
English language and/or the U.S. history and civics exam requirements. 
In order to qualify, a doctor must confirm that the applicant has a 
physical or mental impairment or combination of impairments that 
renders the applicant unable to learn English and/or the required U.S. 
history and government material. This waiver process is complex and can 
add a significant amount of time to the naturalization process, 
reducing further the likelihood that a disabled refugee will be able to 
naturalize within seven years. These problems are exacerbated for the 
most extremely disabled individuals (such as those who are completely 
homebound), who may not be able to access the help they need to begin 
the process of preparing and submitting the naturalization and 
disability waiver application.
    Elderly and disabled refugees who manage to complete the 
citizenship exam are faced with immigration processing delays that can 
make it impossible to achieve citizenship within seven years. As a 
result, many of these ``almost citizen'' refugees lose their SSI 
benefits.
    Refugees must have five years of legal permanent resident (``LPR'') 
status before they become eligible to apply for naturalization. For 
refugees, LPR status is considered to begin on the date of arrival in 
the U.S. Asylee LPR status is deemed to begin one year before the date 
their application for legal permanent residence is granted. Practically 
speaking, refugees have a two-year window during which they must apply 
for naturalization, complete the naturalization examination and 
interview, clear all required security checks, and take the oath of 
citizenship if they are to receive their SSI benefits without 
interruption.
    Asylees have faced even greater delays in becoming citizens in part 
because they have faced a 10,000-per-year cap of those eligible to 
achieve LPR status. This cap resulted in a waiting list of 
approximately 180,000 asylees waiting for green cards, with those at 
the end of the line scheduled to wait 18 years to be eligible to apply 
for citizenship. Before the annual cap was finally repealed by the REAL 
ID Act of May 11, 2005, USCIS failed to utilize even the 10,000 
adjustment ``slots'' to provide the maximum access to LPR status for 
asylees. This failure and resulting backlog was the subject of earlier 
litigation that was settled in favor of the asylees in Ngwanyia v. 
Gonzalez, 376 F. Supp. 2d 923, 2005 U.S. Dist. LEXIS 13942 (D. Minn. 
July 12, 2005) (court approval of settlement), but the ensuing delays 
have meant that in fact it has been impossible for asylees receiving 
SSI to naturalize within the seven year period.
    Since USCIS assumed the immigration service functions of the former 
Immigration and Naturalization Service (INS) in March 2003, processing 
times for naturalization applications have generally decreased across 
the country. However, mostly because of lengthy security check delays, 
the naturalization process can still take years from the time the 
application is filed to the time the applicant takes the oath of 
citizenship.
    Significantly contributing to naturalization processing delays are 
government background checks, which are conducted to ensure that people 
who have criminal backgrounds or who present a security risk to the 
U.S. do not receive legal permission to enter or remain in the country. 
While background checks have been a part of immigration processing for 
many years, these checks, also known as security clearances, have 
intensified since the Sept. 11, 2001 attacks on the United States. The 
requirements for more thorough screening of applicants for immigration 
benefits have added significantly to the workload of U.S. immigration 
officials, and in many cases have delayed the issuance of immigration 
benefits including naturalization. As a result, some applicants who 
pose no risk to the United States must wait for months or, in some 
cases, even years for their security checks to be completed.
    Announcements by USCIS that they have diminished the backlogs and 
processing times for naturalization applications must also be carefully 
scrutinized. In September 2006, USCIS announced that the naturalization 
backlog had been reduced to five months, eliminating the backlog. 
However, in its new analysis of 1.1 million pending cases, USCIS 
excluded from counting approximately 960,000 cases, or 87% of the 
backlog, that it considers to be out of its control, such as those 
awaiting scheduling of a judicial oath ceremony and those pending an 
FBI name check. Also, in April 2006, USCIS announced that, in order to 
preclude lawsuits being filed by applicants when their cases have been 
pending for more than 120 days after the naturalization interview is 
conducted, USCIS has stopped scheduling interviews for applicants until 
their fingerprints and FBI name checks have cleared. Thus, applicants 
whose cases are pending with the FBI now face even longer delays and do 
not have the recourse of filing a lawsuit.
Refugees Who Lose SSI Suffer Irreparable Harm
    Included among the typical refugee cases of loss of SSI of those 
who have not naturalized within seven years of admission to the U.S. 
that HIAS has seen is a 77-year-old widower who came to the Florida as 
a refugee from Ukraine, applied for citizenship soon after he became 
eligible, but waited two years to be called in for a naturalization 
interview by USCIS. During those two years, he lost his SSI. He lived 
in housing provided by a Jewish charity, which waived his monthly rent 
after he lost his SSI, but barely survived on $109 in food stamps and 
his Medicare each month. Florida, unlike some other states, does not 
offer welfare or any other form of monetary support for adults who do 
not qualify for SSI. The man's only child, a son, was killed by a 
suicide bombing aboard a bus in Israel, and he had no family in the 
U.S. who could support him financially.
    In another typical case, a husband and wife that arrived in 
Connecticut after leaving Russia as refugees lost their SSI because 
they were unable to naturalize within seven years. The husband, who has 
been a deaf-mute since age five, was 79 years old when he lost his SSI. 
Because of Russia's failure to educate individuals with disabilities, 
the man never learned to read or write. The wife was 81 years old when 
she lost her SSI and suffers from severe heart disease. Both submitted 
requests for a medical waiver of the English and civics requirements 
for naturalization, which remained pending even after they lost their 
SSI.
The Jewish Community Response
    The American Jewish community has demonstrated a steadfast 
commitment to ensuring that Jewish arrivals to the United States 
receive support if and when they need it. Jewish community action in 
response to the loss of SSI has ranged from English and citizenship 
training and naturalization application assistance; to garnering 
community resources to try to keep those who have lost their benefits 
from becoming hungry or homeless; to advocacy for restoring benefits at 
the local, state, and national levels. Although charitable efforts can 
be helpful, sufficient resources are unavailable to help all those 
losing SSI benefits under the seven year policy.
    Predicting the serious problems that would come to pass after 
welfare reform was adopted in1996, HIAS developed a series of 
initiatives aimed at helping people--particularly in the Russian-
speaking community--to naturalize. Despite HIAS' extensive efforts 
since the 1990s to preempt the looming problem, in 2003 considerable 
numbers of refugees around the country, who had been unable to 
naturalize and had fallen through the cracks because of language 
barriers, ill health or bureaucratic delays, began losing their SSI 
benefits. In the years 2003 and 2004, according to the Social Security 
Administration, close to 3,000 non-citizen refugees and asylees were 
terminated from SSI.
    In 2005, HIAS launched the National SSI Initiative, with staff 
dedicated exclusively to assessing the nationwide scope of the SSI 
problem, providing data to HIAS' Washington, DC office to support 
ongoing efforts to achieve legislative change, providing naturalization 
assistance to individuals, producing citizenship and training 
materials, and developing a national network of professionals to 
provide pro bono assistance in preparing naturalization applications 
for needy refugees.

                                 <F-dash>
              Statement of Alliance for Retired Americans
    The Alliance for Retired Americans commends Chairman McDermott for 
holding a subcommittee hearing on the status of legally resident senior 
and disabled refugees within the Supplemental Security Income (SSI) 
program.
    Founded in 2001, the Alliance for Retired Americans is a grassroots 
organization representing more than 3 million retirees and seniors 
nationwide. Headquartered in Washington, D.C., the Alliance's mission 
is to advance public policy that protects the health and security of 
older Americans by teaching seniors how to make a difference through 
activism.
    SSI provides a minimal cash benefit to persons with very limited 
resources and who are elderly, blind or have a significant disability. 
In 1996, the welfare reform law--the Personal Responsibility and Work 
Opportunity Reconciliation Act--placed many restrictions on the 
availability of federal programs for legal immigrants. Although 
Congress eased some of these, it retained a time limit--initially five 
years, later extended to seven--that a refugee or asylee could receive 
SSI benefits as a non-citizen.
    The rationale for the seven-year time limit may have had some 
validity when it was first enacted insofar as it was premised on the 
idea that seven years was sufficient time for individuals to complete 
the process of becoming a citizen. However, the aftermath of the 9/11 
attacks has led to rigorous background check requirements and increased 
the time required to complete the naturalization process resulting in a 
multi-year backlog. In addition, prior to May 2005, there were caps on 
the number of asylees who could become permanent residents resulting in 
another backlog of applications for legal resident status thus delaying 
the start of their five-year waiting period for citizenship.
    By their circumstances, elderly and disabled refugees are unlikely 
to be able to support themselves or to naturalize. These individuals 
arrived in the United States with little or no assets, are far less 
likely than most immigrants to have a family support network to fall 
back on, and are among the most vulnerable of SSI recipients. Many were 
denied educational opportunities in their home country and are not 
literate in any language. Due to their age or disability, many have 
physical and mental impairments.
    In 2007, individual SSI beneficiaries receive monthly payments of 
up to $623 and married couples receive up to $934, which is 27 percent 
below the official poverty level. In some states this amount is 
supplemented. In most states, the loss of SSI eligibility also means 
the loss of Medicaid coverage. Consequently, in addition to a loss of 
financial assistance, elderly and disabled refugees who lose their SSI 
benefits will also lose their access to medical care. Originating in 
countries such as the former Soviet Union, Iraq, Cuba, Vietnam, Laos, 
Somalia and the former Yugoslavia, they came to this country to escape 
religious, ethnic or political persecution in their native land and now 
annually face the prospects of serious deprivation in their adopted 
homeland.
    Each year there are an increasing number of elderly and disabled 
refugees and other humanitarian immigrants who lose their SSI benefits 
upon the expiration of their seven year SSI eligibility period. The 
Social Security Administration estimates that nearly 12,000 elderly and 
disabled refugees and asylees have already lost their SSI benefits and 
that another 40,000 will lose benefits over the next ten years.
    The United Nations High Commissioner for Refugees has expressed 
concern that eliminating essential services such as SSI benefits after 
seven years falls short of the objective that resettlement is intended 
to offer elderly and disabled refugees.
    The Alliance for Retired Americans believes that SSI benefits 
should be restored to all legal immigrants whose status would have 
entitled them to benefits prior to the1996 welfare reform law and that 
there should be no time limits imposed on when they acquire U.S. 
citizenship. Unless action is taken in this Congress, another 4,500 
people will lose their SSI benefits this year, with many losing 
associated health care benefits as well. The Alliance urges Congress to 
pass legislation that will correct these wrongs. This is a crisis that 
can and should be averted. Humanitarian refugees who fled to the United 
States should be treated humanely.

                                 <all>

</pre></body></html>
